<html>
<title> - A REVIEW OF THE STATE DEPARTMENT REAUTHORIZATION BILL FOR FISCAL YEAR 2018 AND THE STATE DEPARTMENT REORGANIZATION PLANS</title>
<body><pre>[Senate Hearing 115-704]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-704

                    A REVIEW OF THE STATE DEPARTMENT
                  REAUTHORIZATION BILL FOR FISCAL YEAR
                     2018 AND THE STATE DEPARTMENT
                          REORGANIZATION PLANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 17, 2017
                               __________

       Printed for the use of the Committee on Foreign Relations
       

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-105 PDF                 WASHINGTON : 2019 


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


Sullivan, John J., Deputy Secretary of State, U.S. Department of 
  State, Washington, DC..........................................     4

    Prepared statement...........................................     5


              Additional Material Submitted for the Record

Responses to Additional Questions for the Record Submitted to 
  Deputy Secretary Sullivan

    Questions from Senator Marco Rubio...........................    29


    Questions from Senator Benjamin L. Cardin....................    33


    Questions from Senator Robert Menendez.......................    45


    Questions from Senator Christopher A. Coons..................    48


    Questions from Senator Tom Udall.............................    49


    Questions from Senator Tim Kaine.............................    51


    Questions from Senator Jeff Merkley..........................    53


    Questions from Senator Cory A. Booker........................    56


Letter to Hon. James Mattis, U.S. Secretary of Defense, and Hon. 
  Rex Tillerson, U.S. Secretary of State, Submitted for the 
  Record by Senator Tom Udall....................................    59





                             (iii)        

 
                    A REVIEW OF THE STATE DEPARTMENT
                  REAUTHORIZATION BILL FOR FISCAL YEAR
                     2018 AND THE STATE DEPARTMENT
                         REORGANIZATION PLANS

                              ----------                              


                         MONDAY, JULY 17, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 5:01 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Gardner, Isakson, Portman, Cardin, Menendez, Shaheen, 
Coons, Udall, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Just so people understand how we are proceeding today, we 
have a vote at 5:30. Senator Cardin wanted to make sure that 
everyone had the opportunity to hear everyone's questions, so 
in order to accommodate that, gladly, at 5:30, we will recess 
for 15 minutes and come back at 5:45. So everyone can go over 
and vote and be back, so that everyone is able to hear everyone 
else's questions.
    We thank you for being here, Mr. Secretary, again, so 
promptly. We appreciate that you have made time to appear 
before this committee twice in a week's time.
    Passing an annual State Department authorization bill is 
one of the fundamental responsibilities of this committee. And 
when we shirk that responsibility and decline to exercise our 
oversight, we, in essence, surrender our authority to the 
executive branch and to other congressional committees, and we 
fail to do the job our constituents sent us here to do.
    Restoring this annual practice was a top priority of mine 
when I became chairman, and I am proud of the significant 
progress we made last year when the first authorization bill in 
14 years became law. I want to thank Senator Cardin and 
everybody on this committee for making that happen.
    However, because of previous inaction, there are programs 
at the department that have not been appropriately reviewed and 
analyzed in well over a decade. This lack of oversight results 
in uncertain policy goals, wasteful spending, and a lack of 
transparency.
    This year's State authorization contains numerous important 
provisions that build upon last year's bill in exercising 
oversight of the State Department bureaucracy and government 
programs that spend billions of dollars in taxpayer money.
    We also understand that this legislation is being crafted 
in the early stages of the department's plans for 
reorganization. We expect that the reorganization will be a 
topic of a good bit of our conversation today.
    We are pleased that you have come before us to speak about 
the process underway to reorganize the department, and you 
being here is further evidence of the new administration's 
commitment to openness to input and to consultation with 
Congress. I, again, appreciate the 45 minutes or so you spent 
with Ben and I last week before the hearing.
    Rather than being a hindrance to the Secretary as he 
accesses the structure of the department, I believe this 
authorization is a tool that will assist the administration in 
its work, while also serving as a mechanism by which Congress 
can assist in improving how the department functions.
    Ranking Member Cardin and I and our respective staffs 
worked together successfully in the past 2 years to pass 
authorization bills out of committee and get a combination of 
those two bills signed into law.
    Again, I want to thank you, Senator Cardin, for your 
dedication in making sure that this committee continues to 
fulfill its duty this year as well. I want to thank all of our 
members for their cooperation and important contributions in 
the process.
    We are here today to discuss the committee's draft 
authorization bill that we have shared with everyone, and we 
look forward to hearing your views.
    Thank you again.
    I will turn it over to our distinguished ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Sullivan, thank you for returning to our 
committee. I guess we treated you well enough the last time 
that you came back so soon. It is always a pleasure to have you 
here.
    This is an extremely important hearing, the review of the 
State Department reauthorization bill for fiscal year 2018, as 
well as the State Department's reorganization plans.
    Chairman Corker has laid out what both of us feel very 
passionately about, and that is Congress has a responsibility 
to authorize the programs at the State Department, and the 
Senate Foreign Relations Committee is the committee that needs 
to do that work.
    We watch what the Armed Services Committee does with the 
National Defense Authorization Act, which is a very important 
bill, and we recognize that a lot of issues that should come 
through this committee, we need to look at the NDAA bill in 
order to try to get a vehicle to get those issues into statute.
    We should have our own opportunity to do that. And under 
Chairman Corker's leadership, we were able to get an important 
bill done in the last Congress, and we look forward to your 
help in establishing that principle.
    So the draft legislation we are looking at deals with the 
organization of the Department of State. It deals with Embassy 
construction. It deals with personnel issues, diversity, 
information security, public diplomacy, anticorruption, and 
other related issues.
    It is more ambitious, I would say, than the bill we had the 
last time, and it keeps building on what we believe is the 
appropriate role. But we do need your help.
    Now, it is complicated because there is a new 
administration, and there is also a listening tour going on and 
a reorganization going on. So you have committed to us, that 
we, the Congress, this committee, will be a part of that 
consultation as you look at the reorganization of the 
Department of State.
    How we handle the State authorization needs to be 
consistent with congressional input into the reorganization. So 
that presents an additional challenge.
    When we had the hearing on this year's TIP report, I went 
over the fact that there had been press reports that Consular 
Affairs and the Bureau of Population, Refugees and Migration 
were being considered for transfer to the Department of 
Homeland Security, or being abolished, and raised serious 
questions as to whether that was advisable.
    We also know there is a discussion of whether USAID would 
maintain its quasi-independence.
    These are issues that, obviously, this committee has great 
interest in. And as we look at State authorization and 
reorganization, it is important that we understand how these 
issues are being contemplated.
    And then we have an area that has me greatly concerned, the 
reduction of the workforce by attrition. To me, that is a 
nonstrategic way to reduce the numbers at the State Department 
based upon who retires, and could very well compromise the 
ability of the State Department to carry out its mission.
    I am not going to belabor the point. We all know about the 
budget that was submitted by the Trump administration that 
would very seriously compromise the ability of the United 
States to maintain its global leadership on diplomacy. But I do 
mention there is, in that budget, the elimination of 
development assistance at USAID, the elimination of economic 
support and putting it into a new category of development 
assistance and economic support, but at 40 percent lower funds.
    So as we are looking at authorization, it is important that 
we understand what is going on here, because it does not seem 
to add up to what we think are important issues.
    Lastly, let me mention the area of diversity. Diversity is 
a matter that is critically important for the State Department 
to carry out its mission. If you do not have a diversified, 
talented workforce, it is virtually impossible for America to 
have maximum impact around all parts of the world.
    So we want to help you on that effort, but when you look at 
what happened with the Pickering and Rangel Fellows, that 
causes us some concern as to the commitment in the State 
Department to maintain that flow of talent and a diversified 
workforce.
    So yes, we will deal with that in the State Department 
authorization, but we would like to work with you to make sure 
that we in fact have that type of talented workforce at the 
Department of State.
    I look forward to your testimony, and I look forward to our 
discussions.
    The Chairman. We will now turn to the only confirmed 
person, other than the Secretary of State, to help structure 
the State Department. We are thankful that you are here and in 
the role that you are playing on behalf of our Nation and all 
of us, and we look forward to your testimony.

STATEMENT OF JOHN J. SULLIVAN, DEPUTY SECRETARY OF STATE, U.S. 
             DEPARTMENT OF STATE, WASHINGTON, D.C.

    Mr. Sullivan. Thank you, Mr. Chairman, Ranking Member 
Cardin, and members of the committee for having me back today. 
We had a good discussion last week in this committee on the 
department's annual TIP Report, which we released last month. 
We are grateful for your support and attention to this 
important issue and many other State Department matters.
    As I committed in my confirmation hearing, I am always at 
your disposal to come talk about issues of mutual importance of 
the Department of State, and I am grateful for this opportunity 
to engage with the committee, both on the draft authorization 
act and on our redesign effort.
    I certainly recognize and appreciate the committee's 
success last year in passing authorization legislation. In 
passing the bill, you sent a clear, unmistakable message that 
Congress is committed to American diplomacy and to the many 
patriots of the Department of State who work long hours, serve 
the American people, and advance our interests abroad.
    Thank you, members of the committee, for your commitment to 
the department and for your dedication to our mutual goal of 
serving and representing the people of the United States. We 
look forward to working with you on this year's authorization 
effort and appreciate the opportunity to engage, discuss, and 
coordinate with you throughout this process.
    From my initial review of the draft fiscal year 2018 State 
Department authorization bill, it is clear that the committee 
and the department share many of the same goals: advancing 
America's national security and economic interests, the 
judicious expenditure of resources, and the protection of our 
personnel and interests around the world.
    In the 21st century, the United States faces many evolving 
threats to our national security. As this committee knows well, 
the State Department, with a work force of more than 75,000, 
must respond to these challenges with the necessary speed and 
appropriate resources.
    The nature of our work at the State Department demands 
flexibility and adaptability to an ever-changing world. We ask 
that the committee keep this in mind as you continue to 
evaluate proposals for the authorization bill.
    We also appreciate the great interest and support the 
committee has shown to the department's efforts to make our 
programs and organizations more efficient and effective. The 
cornerstone of this redesign effort has been the input and 
feedback received from the State Department's own employees.
    We recently completed a listening survey, which was made 
available to every one of our State and USAID colleagues. The 
response was outstanding and well-received. Over 35,000 
employees completed the survey, and hundreds took part in face-
to-face follow-up interviews.
    Now that we have that initial feedback and have posted the 
results of the survey, the Secretary has asked me to lead Phase 
II of the redesign efforts, which began last week. I share the 
Secretary's approach to making our department more efficient 
and effective without preconceived ideas about the final 
result.
    Phase II includes a steering committee that provides 
oversight and working groups to address the main themes that 
came out of the listening tour: first, foreign assistance; 
second, overseas alignment and approach; third, human capital 
planning; fourth, IT platforms; and fifth, management support.
    We have created an online portal so that every employee can 
continue to provide input throughout this process.
    To ensure a thorough and comprehensive review, we are 
drawing upon the expertise of every bureau in the department, 
with participation from Washington and posts overseas.
    This redesign effort is part of a larger agency review, as 
directed by the President. To meet the President's goals, we 
expect our review to be completed and a report submitted by 
September 15th.
    We welcome your input as we move forward, and please know 
that your feedback will be integral to making the Secretary's 
organizational redesign a success.
    Thank you again for the opportunity to discuss the State 
Department authorization bill. We look forward to working with 
you and your staff, so that Congress can exercise its oversight 
role and the State Department can carry out its mission to 
serve American interests abroad.
    I look forward to answering any questions you may have.
    [Mr. Sullivan's prepared statement follows:]


                  Prepared Statement of John Sullivan

    Thank you Chairman Corker and Ranking Member Cardin for having me 
back today. We had a fruitful discussion last week in this committee 
about the Department's annual Trafficking in Persons Report, released 
last month. We are grateful for your support and attention to this, and 
many other State Department matters. And I am always glad for the 
opportunity to engage with the committee.
    I certainly recognize and appreciate the committee's success last 
year in passing authorization legislation. In passing the bill, you 
sent a clear, unmistakable message: that Congress is committed to 
American diplomacy and to the many patriots of the Department who 
volunteer to work long hours, serve the American people, and advance 
our interests abroad. Thank you, members of the committee, for your 
commitment to the Department and for your dedication to our mutual goal 
of serving and representing the people of the United States.
    We look forward to working with you on this year's authorization 
effort, and appreciate the opportunity to engage, discuss, and 
coordinate with you throughout this process.
    From my initial review of the draft FY 2018 State Department 
Authorization Bill, it is clear that the committee and the Department 
share many of the same goals--advancing America's national security and 
economic interests, the judicious expenditure of resources, and the 
protection of our personnel and interests around the world.
    In the 21st century, the United States faces many evolving threats 
to our national security. As the committee knows well, the State 
Department--with a workforce of more than 75,000--must respond to these 
challenges with the necessary speed and the appropriate resources. In 
other words, the nature of our work at the State Department demands 
flexibility and adaptability to an ever-changing world. We ask that the 
committee keep this in mind as you continue to evaluate proposals for 
the Authorization Bill.
    We also appreciate the great interest and support the committee has 
shown to the Department's efforts to make our programs and 
organizations more efficient and effective. The cornerstone of this 
redesign effort has been the input and feedback received from State 
Department employees.
    We recently completed a listening survey made available to every 
one of our State and USAID colleagues. The response was outstanding and 
well-received. Over 35,000 employees completed the survey and hundreds 
took part in face-to-face interviews. Now that we have the initial 
feedback, and have posted the results of the survey, the Secretary has 
asked me to lead Phase II of the redesign efforts, which began last 
week. I share the Secretary's approach to making our Department more 
efficient and effective, without preconceived ideas about the final 
result.
    Phase II includes a steering committee to provide oversight, 
working groups to address the main themes that came out of the 
listening tour, foreign assistance, overseas alignment and approach, 
human capital planning, IT platforms and management support, and an 
online portal so that every employee can continue to provide input 
throughout the process.
    To ensure a thorough and comprehensive review, we are drawing on 
the expertise of every Bureau in the Department, with participation 
from Washington and posts overseas.
    This redesign is part of a larger agency review, as directed by 
President Trump. To meet the President's goals, we expect our review to 
be completed and a report submitted by September 15th.
    We welcome your input as we move forward, and know your feedback 
will be integral to making the Secretary's organizational redesign a 
success.
    Thank you again for the opportunity to discuss the State Department 
Authorization Bill. We look forward to working with you and your staff 
so that Congress can exercise its oversight role, and the State 
Department can carry out its mission to serve American interests 
abroad.
    I look forward to answering any questions you may have.


    The Chairman. Thank you very much.
    I will defer to the ranking member and withhold my time for 
interjections.
    Senator Cardin. Again, Secretary Sullivan, thank you so 
much for your willingness to take on these responsibilities.
    I want to talk about an area that has gotten a lot of 
attention in this committee, and that is special envoys. The 
chairman has properly pointed out that they continue to grow 
and grow and grow. These are not confirmed positions, and, 
therefore, they gain a lot of power at times, where a confirmed 
person should have personal responsibility.
    So I do not know exactly how we are going to handle this 
one, because there is a lot of support within Congress for 
particular envoys. We do not want to diminish the importance of 
a particular area in which we have a special envoy, and, 
therefore, if we eliminate, the concern is that Congress is 
deterring the priority.
    On the other hand, I would like to know what your 
priorities are. Where do you think we should be looking at 
these special envoys? Where are you looking at not filling 
envoys or suggesting, perhaps, even new envoys? Is it important 
to have those positions confirmed by the United States Senator 
or not?
    So can you just share with us your thoughts on how you 
would like to see the Congress, the Senate working with you on 
special envoys?
    Mr. Sullivan. Certainly. I think, Senator, you have hit the 
nail on the head. The topic of special envoys, it really 
depends on the issue we are talking about, the office that we 
are talking about.
    We have, I think, approximately 70. Some of those offices 
were created to address serious issues, which, over time, have 
diminished in significance or importance. Others, whether it is 
global women's issues, fighting anti-Semitism, are enduring 
issues that are of extreme importance to us not only in the 
State Department, but as Americans.
    So it really depends on the office we are talking about. 
Some of the interests that will guide us are making sure that 
the office, if the office is to remain functioning, is that it 
is linked to resources at the department--for example, a 
bureau--that it may be isolated from if it is a special envoy 
who reports only to the Secretary.
    So all of these special envoys are subject to our redesign 
review that is----
    Senator Cardin. Even those that are congressionally 
authorized? Are you considering not filling positions that 
Congress specifically has provided by statutory authority?
    Mr. Sullivan. We are looking at all of them, and we will 
consult with you and this committee and others on each of them, 
any office that you--I know Senator Shaheen and I spoke about 
women's issues. Any office that has continuing interests by 
members of this committee, we will consult with you before we 
take----
    Senator Cardin. I want to give the administration maximum 
flexibility, but where Congress has said that this area, 
whether it is gender issues or tolerance or the rights of 
minority communities, where we have specified by statute 
certain authority, it seems to me that we are the policy arm, 
that those are areas where you really do not have discretion 
and should be filling.
    If we are going to try to work together on this--I don't 
know, I am open on this, because I agree with the chairman. We 
have too many special envoys. On the other hand, there are 
areas that I want to have special attention where I do not 
think you get it unless there is a point person within the 
State Department to deal with it. And I do not have that 
comfort level as to how we are going to resolve this.
    The Chairman. If I could, just to put it in perspective, I 
think there are 68 envoys. Seven are permissive--in other 
words, we legislated permissive language to create an envoy. 
Eleven are mandated. So the vast majority of these are just 
made-up.
    In many cases, there are large staffs that go with that. Is 
that correct?
    Mr. Sullivan. That is true.
    The Chairman. So anyway, I just----
    Senator Cardin. What is ``permissive''?
    Mr. Sullivan. ``Should'' instead of ``shall.''
    The Chairman. Or ``may'' instead of ``shall.'' It is just 
like we do sometimes on sanctions, ``may'' instead of 
``shall.''
    So there are really only 11 that are mandated.
    Senator Cardin. I may challenge whether ``may'' and 
``shall''--we have gone through this debate many times, whether 
that is directive or whether that is mandatory.
    I am not comfortable, and I would like to know how we are 
going to--how the United States Senate is going to be able to 
weigh in. If we are the authorizing committee, if the Congress 
is the authorizing body, and we want to pay special attention, 
and we think the best way is by special envoy, do we have to 
pass a statute to do that? Or are we looking at ways that we 
have input?
    So if you follow the traditions of other administrations, 
yes, we tell you eight, and then you get 70 on your own? I am 
not sure that is the right way to go.
    On the other hand, should we require that the Senate sign 
off on every one of them by advice and consent? We could do 
that. We are already backlogged on your filling positions. That 
will just add another, I don't know, 20, 30 more confirmations 
to get through.
    I just think this is a cumbersome process, and it is tough 
for us to figure out how to do it unless we know that there is 
an open process. I think there is tremendous interest on 
women's issues. That is one. But there are other areas where 
members have pretty strong views.
    And I know, in the United States Senate, one Senator 
sometimes can dictate what happens around here. So if a Senator 
gets difficult, are we then going to have a special envoy?
    Mr. Chairman, I just think we have to have some orderly 
process in which we are going to be dealing with these special 
envoys.
    The Chairman. My sense is that Secretary Sullivan agrees 
with that and is more than glad to have a conversation about 
that.
    Senator Menendez. Mr. Chair, I have a procedural question?
    The Chairman. Yes, sir?
    Senator Menendez. Since there is a vote at 5:30, how does 
the chair intend to proceed with the hearing?
    The Chairman. We are going to adjourn at 5:30, and we are 
going to come back at 5:45.
    Senator Menendez. Thank you.
    The Chairman. Any other procedural questions?
    Senator Young?
    Senator Menendez. Mr. Chairman, I have some if you want 
some. [Laughter.]
    Senator Young. Thank you, Chairman.
    Thank you, Mr. Sullivan.
    So just on the issue of special envoys, this is precisely 
why we need to look at the entire organization, so that we are 
not doing an end-run around our regional bureaus or functional 
bureaus and so forth.
    But it would be helpful, I agree with folks on both sides 
of the aisle, that we need to, at least over a period of time, 
establish some operating principles that inform us when a 
special envoy will be appointed, when one will not. One 
possibility is that we are notified, and that special envoy 
will continue to exist unless we affirmatively indicate, after 
60 days or whatever, that that special envoy was 
inappropriately, from our perspective, put in place.
    I would like to pivot to the proposed merger, at least 
circulating in some circles, the contemplated merger of USAID 
and the State Department.
    CSIS recently published what I thought was really 
instructive and thoughtful analysis of the merger of USIA, the 
United States Information Agency, and the State Department in 
1999 and why that went awry. I would like to just read some 
excerpts from that.
    The origins of that merger, I became aware, were Vice 
President Al Gore's Reinventing Government blueprint.
    The plan was to fold USAID and USIA and the Arms Control 
and Disarmament Agency into State. Now ACDA, the arms control 
agency, was happy to merge because they are primarily 
diplomatic in what they do. But USAID and USIA resisted that. A 
deal was cut, as so often happens up here. So here is what 
happened.
    And, oh, by the way, the Heritage Foundation, which is 
currently advocating for a consolidation of State and USAID, 
has called this USIA merger misguided, and some of their 
scholars have written about how poorly it went.
    So one reason for the failed integration of the agencies 
stem from the vastly different missions and cultures of the two 
organizations. I would argue that this is something we should 
consider here.
    State and USIA's budget functions were also merged, but 
public diplomacy was and is seen as a secondary or tertiary 
function of the State Department. That created problems as 
well.
    Lastly, the consolidation, we now know, was shortsighted. 
Soon thereafter, we had 9/11. The global war on terror is a 
global war of ideas. It gives us some sense of how 
consequential getting it wrong can be.
    So I would just command that very brief article to your 
attention, to others' attention, as we consider that.
    Next, I want to thank you. You caught me out in the hall. 
You have the best follow-up of any political appointee in my 
recent memory. You caught me out in the hall after the last 
hearing and asked me if I had any additional questions or 
concerns pertaining to a Government Accountability Office 
question I asked you. Then we got into a conversation about a 
task force that Senator Shaheen and I have been working on 
related to USAID and its reorganization.
    I indicated to you that Secretary Tillerson had promised to 
sit down with members of that task force, Senator Shaheen and 
myself, to discuss some of our ideas, and you offered your 
encouragement. So thank you for that.
    Lastly, I think it is important for this committee to 
understand, Secretary Sullivan, the timeline we are dealing 
with here. In your prepared statement, you write that you 
expect to complete the reorganization report by September 15th.
    I do not believe you have spoken to this yet, but will this 
committee receive a copy of that report? And if so, when?
    Mr. Sullivan. Thank you, Senator.
    Not only will you receive the final work product, but my 
plan is that we will be consulting regularly. I and others, 
including the Secretary, will be consulting regularly between 
now and then, so that your views inform the final report.
    Senator Young. So when would you anticipate the next--
because I have not been apprised of any previous consultations, 
to my recollection. So is that something you can send to each 
office here, each member of the committee, your updates?
    Mr. Sullivan. Certainly, I would be delighted to. I started 
last week. As the chairman mentioned, I had a conversation 
before the hearing last week with the chairman and the ranking 
member on this. I told them then, and I will tell all the 
members of the committee now, that that is just a first step in 
our consultation with you. This is the next step.
    We will make sure that you and all the members of the 
committee are aware going forward of opportunities for us to 
solicit your input and also to provide you updates on how we 
are proceeding.
    Senator Young. Lastly, can you assure me that you will not 
begin implementation of this proposed plan until each member of 
the committee has been fully briefed on it?
    Mr. Sullivan. Absolutely.
    Senator Young. Thank you.
    The Chairman. Thank you.
    Senator Coons?
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin, for holding this important hearing, and for all the 
work that you and your staff have done on this fiscal year 2018 
State authorization bill. I continue to believe it is very 
important for this committee to go through this process 
annually, and I appreciate the improvements to the process this 
year.
    I am pleased the bill includes three of my proposals to 
help State Department personnel, and I hope we can agree to 
provide greater flexibility to allow separated family members 
of Foreign Service Officers to travel to see each other and 
family members. And I look forward to authorizing science and 
technology fellowships to encourage innovation at the 
department.
    While I support this committee process, I also want to be 
clear that I do not view this bill as somehow granting 
congressional approval of the Trump administration's 
reorganization or funding plans for the department and USAID. I 
appreciate the line of questioning by Senator Young, to that 
effect.
    I continue to be concerned about the lack of clarity 
surrounding the reorganization process and hiring freeze. I 
appreciate what we have heard so far today, but look for more.
    And, of course, I oppose the steep budget cuts to diplomacy 
and development proposed in the administration's fiscal year 
2018 budget request.
    I am pleased that this bill includes a mechanism by which 
Congress can review reorganization, and I want it to move 
forward.
    So, Deputy Secretary Sullivan, thank you for your 
willingness to testify and to respond to our concerns.
    Foreign Service Officers, their families, and the whole 
community of employees of the State Department and USAID make 
enormous sacrifices to serve our country. Their work is 
critical to our national security and to advancing U.S. 
interests around the globe. As a member of the Senate's Friends 
of the Foreign Service Caucus, I believe we can and should do 
more to recognize their work and address the challenges they 
face. I look forward to taking that on with you.
    Let me just mention, in April, I traveled with Chairman 
Corker to the Bidi Bidi refugee camp in northern Uganda to draw 
attention to the impacts of conflict and manmade famine in 
South Sudan. I then went on to Juba. I had an opportunity to 
spend time with the Foreign Service Officers at Embassy Juba, 
which is an unaccompanied post.
    I am concerned that they face unnecessary hardships, and I 
would be interested, Mr. Deputy Secretary, in whether you are 
working to improve the conditions, of course, at Embassy Juba, 
but also at many other unaccompanied posts around the world.
    And I am interested in whether you would consider renewing 
or extending the South Sudan and Sudan envoy position, one of 
the 70-some that I see some value in, given the famine, the 
conflict, and the regional context.
    Mr. Sullivan. Sure. Well, the welfare of our men and women 
who serve abroad, both in Foreign Service and civil service, is 
our highest priority.
    The Secretary, every staff meeting we have begins with a 
question, and that is, are our people okay abroad? It is his 
highest priority. It is my highest priority.
    To address the issues that you have raised, we have 
included in our redesign effort--the redesign consists of an 
executive steering committee, which I chair, and then the five 
working groups that I described. Among them, the working groups 
would address all of the issues you raised about conditions 
abroad, allowances, the treatment of our Foreign Service 
Officers, the support that we provide to them.
    The most significant aspect of this redesign is all of the 
input is coming from our career Foreign Service and civil 
service officers. All of the working groups, there are very few 
noncareer participants. In fact, for the working groups, there 
is only one non-career participant. All the other members are 
either from State or from AID, with proportional representation 
between State and AID, Foreign Service, civil service, 
stationed in Washington or abroad, and at different levels of 
seniority. So we have tried to cover the whole gamut of the 
department and AID, so that those issues you raised will be 
raised by the people most affected by them.
    Senator Coons. Let me ask, if I might, two more quick 
questions. I understand you may not have the full time to 
answer them. I will submit them for the record, if that is the 
case, because we are going to adjourn in just a moment.
    First, I understand one of the bureaus or offices you are 
considering closing is the Office of Iran Nuclear 
Implementation, and folding it into the Bureau of Near Eastern 
Affairs. Ambassador Stephen Mull, someone who this committee 
got to know well, is no longer serving as the lead coordinator 
for Iran Nuclear Implementation.
    I would welcome hearing, if I need information on JCPOA 
enforcement, who is the lead person? Will the administration 
appoint a new lead coordinator for Iran Nuclear Implementation? 
And are you accounting for the fact that this committee and 
individual Senators like having regular briefings on Iran, the 
JCPOA, and the path forward, first?
    Second, I will just summarize. In a lot of meetings with 
civil service and Foreign Service Officers in a number of posts 
in the last 6 months, there is a lot of concern about USAID, 
both from its own employees and from others in the department, 
about proposals that would reduce its autonomy. The budget 
proposal imposes particularly sharp cuts on USAID. I did not 
know whether proposals to merge USAID into State were part of 
what is being reviewed under your leadership and how you would 
work to address USAID employee concerns.
    The Chairman. Briefly.
    Senator Coons. I have exceeded my time.
    Mr. Sullivan. I will take the second issue first.
    Senator Coons. Thank you.
    Mr. Sullivan. Let me reassure you and the committee that 
there has been no predetermination on the issue of absorbing 
USAID into the State Department. We had a robust discussion 
last week on the steering committee with significant 
representation from USAID participating, who provide their 
input on what Senator Gardner has described as the different 
culture, mission, toolsets, et cetera, that USAID employees 
have.
    I am very familiar with that and very respectful of that, 
and their input is extremely important. And there has been no 
decision to merge AID into State.
    Second, Ambassador Mull I have met with. He is one of our 
most senior career Ambassadors, a great patriot. The office 
that you described is one of those that is under review. No 
decision has been made yet on what will be done, if anything 
will be changed, with respect to that office.
    But what I can assure you of is two things. First, that the 
significance of the subject that is addressed by that office 
has not diminished in any way. And second, whatever information 
you, Senator Coons, or any member of this committee needs, you 
will get. That is my promise to you.
    Senator Coons. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman, for your indulgence.
    The Chairman. Thank you.
    So we will stand in recess for 15 minutes. We will 
reconvene, by my watch, at 5:49. You are welcome to some of our 
great coffee back here or sitting there talking to others.
    Thank you. [Recess.]
    The Chairman. The recess will end, and we will stand in 
hearing again.
    And I will move to Senator Portman. Thank you for being 
here, sir.
    Senator Portman. Thank you, Mr. Chairman.
    Secretary Sullivan, you know how I feel about you. I 
appreciate the proactive approach you took on getting Otto 
Warmbier home, and I appreciate your coming to Cincinnati for 
his service as well, his funeral.
    I was not here earlier. I know the hiring freeze and the 
reorganization was a topic of discussion. I just wanted to talk 
to you a little about that as it relates to the Global 
Engagement Center. As you know, it is something I feel strongly 
about.
    We, in 2017, as the Senate and the House, in the National 
Defense Authorization Act, asked the Global Engagement Center 
to take on additional responsibilities specifically with regard 
to disinformation coming from countries intending to 
destabilize democracies, undermine some of our basic values and 
institutions. Russia and China come to mind.
    The GEC also has an important role, as you know, in 
providing the counternarrative in pushing back against Islamic 
extremism.
    So my question for you is, is there an ability to keep some 
of these important entities, like the Global Engagement Center 
specifically, from being weakened by a hiring freeze or other 
reorganizations that could lead to it having a more difficult 
time carrying out its important responsibilities?
    Mr. Sullivan. Certainly. Thank you, Senator.
    And thank you for your help also with the Warmbier case. We 
appreciate the assistance that you provided.
    With respect to the Global Engagement Center, it is a 
priority for Secretary Tillerson. It is something that is an 
important part of our mission, for all the reasons you State.
    We are flexible. There is a hiring freeze, but we are 
flexible with respect to that. We have granted a number of 
exemptions, over 700 exemptions to the hiring freeze to support 
safety, security, health.
    So we are reviewing them regularly. And I am not aware that 
there has been, as of yet, a request with respect to the GEC, 
but we would certainly entertain that.
    Senator Portman. Thank you. I think that the threats we 
talked about do present a national security threat to the 
United States of America. Certainly, that would qualify, it 
seems to me.
    Again, we are just getting this up and going. It is more 
important than ever, given what we know about, now, some of the 
meddling here in our own election, but also in democracies 
around the world being affected by some of this disinformation 
and propaganda.
    So I would hope they would ask for and be exempted from 
these hiring restrictions, to the extent you are continuing to 
develop that important entity. So I thank you for that.
    If you do not mind, what I would like you to do is get back 
to me on it.
    Mr. Sullivan. Of course.
    Senator Portman. We will be interested to see why they have 
not made a request, if they have not.
    On the reorganization, in general, again, I know you have 
had an opportunity to speak about this some. The many entities 
that you now have oversight over in your role as deputy, and I 
understand that you are going to be heading up some of the 
reorganization ideas, is the foreign military financing.
    I think FMF is a critical component of American diplomacy 
and relationship-building in very key parts of the world. In 
the State Department budget request, that account was to be 
reduced, I think by 19 percent compared to 2017, with 95 
percent of the requests allocated to just four countries--
Israel, Egypt, Jordan, Pakistan. I think the remaining $200 
million was to be placed in a global account.
    I guess I just wondered, does this budget proposal reflect 
broader structural changes in the reorganization? In other 
words, is this something that the State Department is 
considering as part of its reorganization? And what do you 
perceive as the benefits of such changes, compared to the 
current FMF structure?
    Mr. Sullivan. The redesign that we are undertaking is 
really independent of the budgeting process. Secretary 
Tillerson has made clear that even if our budget were being 
increased, even if we were the Defense Department and we were 
getting more money from the budget, that he would undertake a 
redesign to look at the mission of the department and how we 
are organized.
    One of the work streams, one of the work groups that has 
been constituted for the redesign focuses on foreign assistance 
programs. Included in that is FMF.
    So we are considering reviewing that as part of our 
redesign effort with input from Foreign Service, civil service, 
senior-level career people, to make recommendations on 
improving our foreign assistance programs, including FMF.
    Senator Portman. At FMF, are you looking at loans instead 
of grants?
    Mr. Sullivan. I am sorry?
    Senator Portman. Are you looking at loans instead of 
grants?
    Mr. Sullivan. We are looking at both.
    Senator Portman. Again, my time has expired. I want to 
thank you for your help most recently on the Warmbier case.
    And then, generally, I wish you good luck on the 
reorganization. I do think that there is room for reform. I do 
think that there are ways to more effectively be able to 
represent our interests, soft power interests, around the 
world. I am glad you are where you are.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    I hope this is the first of many conversations we will have 
about the State Department authorization bill. I have serious 
reservations about the bill as written for a number of reasons, 
and I just want to outline a few of those.
    It is my personal belief that Congress as a whole is a 
coequal branch of government with the executive and must, 
therefore, dutifully exercise its role not only as overseer, 
but as authorizer. What do you authorize?
    While I appreciate the efforts of the chair to include many 
of the provisions Senator Rubio and I worked on together for 
the bureaus that fall within our subcommittee's jurisdiction, 
the bill merely offers permissive suggestions for the 
Secretary. Saying there should be a bureau within the 
department that is authorized to promote democracy and actively 
support human rights throughout the world is very different 
from mandating that bureau's existence.
    I worry, particularly given this administration's 
intentions, for example, to completely cut funding for 
democracy assistance, such permissive language would give the 
Secretary congressional cover for simply not supporting such a 
bureau.
    So in my view, true oversight is, in essence, to create the 
structure at the State Department, to authorize it. That is the 
Congress' view.
    Additionally, this bill does not address a critical 
component of our foreign policy, foreign assistance. And USAID 
and foreign assistance programs that promote economic 
development, support good governance reform, provide technical 
and educational training are essential elements of a 
comprehensive American foreign policy that promotes our 
interests and builds more stable and resilient allies and 
partners.
    To suggest, as I have heard, the possibility of folding 
USAID into State, to me, is alarming, and I would like to 
understand the policy perspective behind that. I am especially 
concerned that we are undertaking this exercise as the 
administration pursues what continues to be, at least to me, 
draconian cuts.
    And even though we supposedly reject it here, it says where 
the administration's intent is--draconian cuts to the agency 
primarily responsible for promoting American values and 
securing our interests overseas, and an ill-defined 
reorganization process that thus far seems to be no more than 
an exercise undermining and pushing out career diplomats in the 
foreign and civil service who have dedicated their lives to 
serving this country, with seemingly no strategic consideration 
that I can discern.
    Mr. Sullivan, public reports of the listening survey you 
referenced in your testimony indicate ``a high level of 
confusion and demoralization among the ranks of career 
diplomats and civil servants who express concerns about their 
futures, as well as the trajectory of American foreign 
policy.''
    You have explained these measures as saving money, and I 
ask, at what cost?
    The conservative National Review recently published a piece 
that concluded, ``The State Department's core is being gutted. 
Tillerson is running Foggy Bottom the way a corporate raider 
might take over a company, firing half of its work force, 
repurposing its original mission, scaling back its operations 
across the globe. Offices are being shuttered while 
ambassadorial, assistant secretary, and under secretary posts 
remain unfilled.''
    So since this is the beginning of this debate, I assume, I 
just wanted to take most of my time to say that. But let me ask 
you, in what time I have left, one or two strategic questions.
    Can you share with me whether--during your nomination 
hearing before this committee in May, which I supported you, 
you noted the cultural and policy differences between USAID and 
State, including the long-term nature of development and often 
shorter focus of diplomacy.
    Can you give me a sense of whether it is true that a 
proposal to merge USAID into the State Department is, in fact, 
taking place or to reduce the agency's autonomy? And if so, how 
do you intend to incorporate this perspective you said under 
oath here, in terms of going through the conversations on 
reorganization?
    Mr. Sullivan. Well, the first thing I would say, Senator--
thank you--is that we are including, both on our steering 
committee, which is the broad, organizing committee that I 
chair, and on all of the five working groups, including the 
foreign assistance working group, senior and less senior career 
AID officials.
    Career people, first, predominate on every one of these 
working groups and the steering committee. And there is 
proportional representation. So AID is well-represented, the 
AID perspective, which you just articulated, with which I 
agreed during my confirmation hearing and still agree.
    Senator Menendez. How many people are on the working group?
    Mr. Sullivan. There are approximately 50.
    Senator Menendez. And how many people from AID?
    Mr. Sullivan. I do not have it. I will get you that number. 
But it is a breakdown based on the size of the State Department 
versus AID. I will get you those precise numbers.
    But AID, we believe, is completely--its view is articulated 
by senior people, who are represented fairly on all of these 
committees.
    Senator Menendez. My time has expired. You told me that 
they are represented. That was not my question. My question 
was, is it part of the policy reorganization intention to fold 
AID into State? And if so, how are you dealing with the 
differences in culture?
    Mr. Sullivan. My apologies, Senator. The answer to that 
question is no. There is no intention to fold AID into State. 
That has been proposed by people outside the department. It is 
something that could be considered by this working group. But 
if it were, it would be with the full input of all of these AID 
leaders involved.
    But I can commit to you that there has not been an 
intention--there is not an intention of this department to 
absorb USAID.
    The Chairman. If I could, as I understand, just in talking 
with you, but also Secretary Tillerson, there is no beginning 
point on making any assumption whatsoever either way, as I 
understand it. And you all are taking input, but you are not 
beginning this process with the intention of trying to make 
that happen. You are beginning the process by meeting with 
others and trying to understand the best way to go forward.
    Mr. Sullivan. Correct. And in going forward, it will be 
done, as Senator Menendez has recommended, and we agree, in 
close consultation with this committee.
    Senator Menendez. Mr. Chairman, I remember the refrain that 
the road to hell is paved with good intentions. So I get what 
the Secretary is saying, but I have serious concerns when 
people have been told to fill out forms and do memos that 
basically talk about how your service would be moved into 
another direction.
    Maybe that is not the intention. Maybe it is informative, 
at the end of the day. But I am not quite sure.
    I have many other questions. I will submit them for the 
record. I hope this is the beginning of a conversation.
    The Chairman. Very good. I am not trying to lead. I just do 
not want his response to be misunderstood, based on what I know 
to be some other context.
    Also, I do not think that there is an intent to move it in 
any particular direction. I think that is fair, at this point. 
And I think it is also fair that you want input, and others 
want input, before a decision like that is made.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you to you and Senator Cardin, for holding this 
hearing, which I think is very important, because, as so many 
of my colleagues have said, it is critical that Congress play a 
role, an oversight role in this reorganization effort.
    Our engagement as a committee, when we are in the process 
of a State authorization process, I think is particularly 
important. I have some reservations that I have shared with the 
committee chairman about moving forward with this kind of 
reorganization at the department while we are also doing a 
reauthorization, and we have no idea what is going to come out 
of the reorganization that you are doing at the department, and 
what your recommendations will be.
    So I have some specific questions, but before I get to 
those, I just want to raise a topic that I know this committee 
has been concerned about. I know it was raised last week, I 
think with you, actually, and that is the reports of Under 
Secretary Shannon's meeting with the Russian Deputy Minister 
Ryabkov today.
    We have had experts. I raised this last week before the 
Armed Services Committee when we were talking about Russia's 
influence in the Montenegro election and their coup attempt, 
basically, about what kind of a message it would send if we 
returned those facilities that were seized in response to the 
attack on our election.
    The witnesses before the Armed Services Committee were 
unanimous in saying that is absolutely the wrong message for us 
to be sending.
    So I just want to raise this again, because I think it is a 
very big issue, and I hope you will keep the committee informed 
about any updates on these talks and what happens with this 
issue.
    Mr. Sullivan. Certainly, Senator Shaheen. I have had this 
conversation with Senator Cardin last week.
    Senator Shaheen. That is my understanding.
    Mr. Sullivan. Those properties to which you refer are part 
of a larger dialogue with the Russian Federation, involving 
issues--for example, the PNG issue, the Russian diplomats who 
were expelled. There are a whole host of issues that we are 
discussing with the Russian Federation. I understand there is a 
meeting going on as we speak.
    But my undertaking--commitment to Senator Cardin, and I 
make to you, is that we will consult with you on this issue 
before any final implementation of an agreement that we do not 
have yet the Russian Federation.
    Senator Shaheen. Well, I appreciate that. Again, I do not 
think we should be rewarding Russia until we see their behavior 
change.
    So I want to go on to a couple issues relative to the 
reorganization. You mentioned the conversation we had at your 
confirmation hearing about the Office of Global Women's Issues, 
which I understand is that our draft State authorization text 
still removes the Ambassador-At-Large for that position. I 
think it is hard to think about setting up an Office of Global 
Women's Issues without having somebody in charge of that who 
has significant authority.
    So can you talk about what you are doing with respect to 
that issue, as you are looking at the reorganization?
    Mr. Sullivan. Certainly. It is a high priority for the 
Secretary, as he has testified and as I have testified. And it 
is a high priority for the White House, both for the President 
and senior advisers to the President.
    So the office itself, as is the case with all of the 
special envoys that we have been discussing, is included in--
because it is a look at the entire department, it is included 
in what we are assessing.
    What I can commit to you is--well, I can commit several 
things. First, that issue will not--the significance of that 
issue of empowering women will not be downgraded, no matter 
what happens to the office. Second, we will consult with you 
before any action is taken. And third, we are committed at the 
department to empowering women at the department.
    And those three things I am confident of and commit to you.
    Senator Shaheen. Thank you. I very much appreciate that.
    One of the other reports that has come out in the last week 
has been that the White House is pushing for State Department 
Bureau of Consular Affairs and the Bureau of Population, 
Refugees, and Migration to be transferred to the Department of 
Homeland Security.
    Can you speak to whether that is under consideration?
    Mr. Sullivan. It is similar to my response to Senator 
Menendez. That is not the intent of the department. Secretary 
Tillerson does not have, at present, that intention.
    It is something that, if it were raised in our review, we 
would consider. But it would be considered with the 
understanding that both the Consular Affairs function and the 
function of PRM are vitally important to our mission at the 
Department of State, as I discussed last week at the hearing on 
Thursday.
    Senator Shaheen. Thank you. I, again, appreciate that. 
Consular Affairs, as you know, has been charged with setting 
visa policy since 1952 when we passed the Immigration and 
Nationality Act. I think to shift that to the Department of 
Homeland Security, especially at a time when the issue of 
refugees and immigration is so controversial, would be the 
absolutely wrong approach.
    And I will just tell you right now that, if that is the 
case, I will be one of those opponents leading the charge.
    Thank you.
    Mr. Sullivan. Thank you.
    The Chairman. I just, again, want to revisit the subject 
that Senator Menendez brought up, and then I would like to 
visit something Senator Shaheen has just brought up.
    I get no sense whatsoever that it is the intention of the 
Secretary of State to push for USAID to be merged into State. I 
get none of that. I do not think that is an outcome they are 
driving at.
    I do think, on the other hand, they are sitting down and 
talking with people, as you might expect, and getting input as 
to how the organization ought to be set up. But I do not think 
there is any desire whatsoever for that predetermined outcome 
to occur, okay? I don't.
    I know you have some concerns about the piece of 
legislation, and we all know that any one Senator, at this 
juncture, can keep it from happening.
    What I do not understand, I know we have talked about it 
some on the floor, I do not understand why waiting to do an 
authorization until after the State Department has acted, I do 
not see how that benefits anybody. I just do not understand 
that.
    I mean, we are continuing to build out a State Department 
authorization each year. We make it larger and larger and 
larger. At some point, we are going to have the whole thing 
done. I do not understand how, because they are going through a 
reorg, us not taking action benefits us.
    I mean, I know we have talked about that. And again, any 
one person can keep it from happening. We've got it. I just do 
not understand how that retains authority to the Senate.
    So we are having an open discussion. Maybe this is 
improper, but I just wanted to raise that.
    Senator Shaheen. May I?
    The Chairman. Sure.
    Senator Shaheen. So as I understand the reauthorization 
that we are looking at, we do not deal with USAID in that 
reauthorization. Is that correct?
    The Chairman. Which is how we set up the process on the 
front end in order to, again, accomplish as much as we thought 
we could under a unanimous consent-type Senate.
    But go ahead.
    Senator Shaheen. Well, I guess it feels to me like, if 
there were a reorganization that makes a recommendation for 
USAID or the Bureau of Consular Affairs or Global Women's 
Issues, whatever it is, that when that goes into effect, if we 
have already done a reauthorization, we do not really have a 
vehicle that we can help to move to raise Congress' concerns 
about those reorganization policies that we might disagree 
with. That is the concern that I have.
    The Chairman. Except that we have the authorization again 
next year.
    Senator Shaheen. We do, but----
    The Chairman. By withholding, we are in no way keeping a 
vehicle to do it. Do you understand? I just----
    Senator Shaheen. I do, but I also understand that when 
something goes into effect, it is harder to undo it than to 
prevent it from happening.
    The Chairman. But we do not have a vehicle at present.
    Again, I am just missing the psychology here, and I want to 
understand it, because I would like for us to continue as a 
committee to build out to a place where we actually have an 
NDAA-type authorization process.
    Senator Shaheen. Right.
    The Chairman. Each year, it is getting broader and broader 
and broader. I just do not understand how withholding has any 
effect whatsoever on the reorg when they are telling us they 
are going to come back and consult with us anyway on that 
process all the way through.
    But it is a conversation we need to continue to have.
    Senator Cardin. Mr. Chairman, if I could just briefly 
intercede.
    The Chairman. Yes.
    Senator Cardin. I want to get an authorization bill done 
this year, so I am with you on that. But I think it is a 
reality that we have to look at what is being done in the 
administration. Let me just give you one example.
    Tonight, there was a press report that the Secretary of 
State is considering the elimination of the special coordinator 
for Global Criminal Justice issues, which basically deal with 
atrocities and war crimes. There is great interest in this 
committee on both sides of the aisle for Syrian war crimes 
accountability, Iraq war crimes accountability, preventing 
atrocities, et cetera. And although I understand the Secretary 
wants to reorganize, it is being broadcast as downplaying the 
importance of holding war criminals accountable.
    In that environment, it is going to be difficult for us not 
to respond.
    So I think Senator Shaheen's point dealing with USAID, yes, 
we have agreed that this framework would not include USAID. But 
if the administration is making fundamental changes--and I 
understand Secretary Sullivan believes that is not the case, 
but if they are making fundamental changes on the organization 
of USAID and we remain silent, that is a challenge. If they are 
going to do major changes in criminal war crimes 
accountability, and we are silent, that is a nonstarter for I 
think both Democrats and Republicans on this committee.
    So I just think it is a reality we are going to have to 
respond to some of the things that are done. But I want to get 
to the finish line.
    The Chairman. And each year, there is an authorization that 
comes up, and each year, you can write things in and make them 
law. I do not see how remaining silent by not acting in any way 
causes it to be any lesser remaining silent.
    So again, I do not get the psychology, but I obviously need 
to understand it for us to be able to move ahead.
    Senator Menendez, then we will move to Senator Markey.
    Senator Menendez. Mr. Chairman, thanks for the opportunity.
    I understand your question. Let me just give you a few cuts 
at it.
    The Chairman. Okay.
    Senator Menendez. As you may remember, I did not want to 
move forward on the State authorization last time.
    The Chairman. I remember it very well.
    Senator Menendez. Out of deference to the chair, I yielded 
and stopped my objection on the floor.
    The Chairman. I appreciate that.
    Senator Menendez. And we have worked together on many 
things, so this is not an ideological issue. But it is, for me, 
one of the most critical things the committee can do, and how 
it does it is incredibly important.
    So, for example, in answer to your question, how does 
waiting inure to our benefit, if we were actually having 
legislation that was creating certain parts of the State 
Department in a mandatory form versus a permissive form, I 
would say it does not inure to our benefit to wait. But when we 
basically create permissive, virtually across-the-board, the 
second complicating factor, in addition to I do not believe it 
should be permissive across-the-board, is that the 
reorganization taking place by the Secretary, such a permissive 
nature might be seen by some as giving it an okay, that what 
you ended up doing is actually okay.
    For some of us, I think some of the things, whether they 
are intended or not, and I accept your word, since you are 
engaged far more with the Secretary and the State Department 
than I am, that the intentions are good.
    But, for example, I know that OMB Director Mulvaney, he has 
a different view than the Secretary. So he may be pushing that 
view from an administration point of view, so it may not even 
be the Secretary, at the end of the day, to collapse USAID into 
State.
    The point being that, when we give it our imprimatur, in a 
sense, I do not want to be responsible for giving imprimaturs 
to things that I really fundamentally have a problem with.
    And the last point is the question of, it will be far more 
difficult, in my view, having sat where you sat, and having an 
administration of my party and standing up to it when I 
personally believed they were wrong on a policy basis, to 
challenge next year's authorization, assuming you do this 
year's authorization, something that the administration will 
have done.
    So they structure the new department as they wish. They 
pursue their reorganization without any meaningful effort 
legislatively to construct what that should look like. And now, 
once having done that, members not only on this committee but 
of the Senate as a whole, will be put into a position of, if 
they believe that reorganization or elements thereof were not 
appropriate, of challenging the administration to do that in a 
new authorization bill.
    So that may not be a problem for the chair, because I 
recognize the chair's independence, but I have to be honest 
with you, I am not sure that is in everybody's case.
    So when you ask me, why wait? That is my perspective.
    The Chairman. I am glad to have this conversation. We are 
going to move to you in one second, Senator Markey.
    I would just say we are in that situation either way. If we 
act in the next 60 days or we do not act in the next 60 days, 
we are in that same situation, but we have not built it out 
further.
    I understand what you are saying about permissive versus 
mandatory. That is a point well-taken. But by not acting or 
acting, we find ourselves in the same place when the timing of 
what they do is going to occur later on.
    But go ahead, Senator.
    Senator Shaheen. I just wanted to make one point to clarify 
that I support the reauthorization. In fact, I think this 
committee should have the same kind of process that the Armed 
Services Committee has, where we do an authorization every 
year. It is debated. It goes to the floor. And there is an 
understanding that it is going to be part of what we do 
annually. Because I think what we need to do is to elevate the 
role of diplomacy and the State Department. Having that kind of 
process does that.
    So I am totally in agreement with you on that. We are just 
disagreeing about timing.
    The Chairman. That is fine. I will move to Senator Markey 
by saying, each year, there seems to always come an issue, and 
I really appreciate both of you, actually--I think last year, 
on the floor, the two of you were actually somewhat resistant 
for different reasons. I appreciate you allowing us to continue 
to build out.
    And I have shared with each of you and Senator Cardin, I do 
not come at this with any ideology. I come at this with what 
you just said exactly. I want this committee to determine the 
policies that take place at the State Department and USAID. And 
it is more important to me each year that we build that out, 
whatever direction it takes, just so we continue to build it 
out.
    And I thank you both for allowing last year to go forward. 
I do not know how stopping it this year benefits this, but I am 
still listening.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman. You are going to 
be in an echo chamber here, so I will just say that, if there 
is going to be an effort by this administration to eliminate 
special envoys, and this legislation makes it possible for them 
to eliminate special envoys, we are talking about the Special 
Representative for Nuclear Nonproliferation, the Special 
Representative for Biological and Toxins Weapons Convention 
issues, the representative to the Organisation for the 
Prohibition of Chemical Weapons, the special negotiator for 
plutonium disposition, the Special Envoy for Climate Change, 
the Office of the Haiti Special Coordinator, the Special 
Representative for International Labor Affairs, the Special 
Envoy for Human Rights of LGBT Persons, the coordinator for 
sanctions policy, the Special Representative for Religion and 
Global Affairs, and the representative for Northern Ireland 
issues.
    So I am very concerned that language in this State 
authorization bill will have the effect of cutting all of these 
positions, unless the administration chooses to fill them. I 
think it would be better for us to kind of know what their plan 
is so that we can then respond to their proposal rather than 
giving them this authorization to do so without having an idea 
as to how many of these positions might be eliminated, if not 
all of them.
    So can I ask you, Mr. Sullivan, how many of these positions 
are you contemplating right now eliminating?
    Mr. Sullivan. Senator Markey, there is no preconceived view 
on any of those offices. The goal is to, for all of those 
issues--and all of the issues that are represented or addressed 
by those offices, all are important.
    Our overriding goal is to make sure that those issues are 
addressed properly. One concern we have with the special 
envoys, speaking generally, is that they are delinked from the 
substantive bureau.
    So, for example, for the Northern Ireland representative, 
it is not part of the European Bureau. So it would not be a 
case, I do not think, without prejudging--but just as an 
example, for that special envoy, rather than being a special 
envoy outside the organizational bureau who reports directly to 
the Secretary, and, therefore, is somewhat insulated from this 
committee, because the Assistant Secretary for European Affairs 
who can be called before this committee, that special envoy 
reports to the Secretary.
    It is really a question of how we address those important 
issues and structure our bureaucracy accordingly.
    Senator Markey. As you know, my mother is a Sullivan. So it 
took a long time to get a special envoy to Northern Ireland, 
right? So that is the special thing. But each one of these 
other special envoys reflects a priority that was established 
to ensure that a little special attention that otherwise the 
issue might not receive from the department, in general, was 
given that special role.
    So none of these are incidental. Each one of these areas 
has a reason why they have a special envoy. If they are moved 
into kind of larger parts of the agency that do not have any 
squarely aligned responsibility with a senior person inside the 
department, it just would run the risk of slipping through the 
cracks, of not getting the attention it needed, of not having 
the focus, which, clearly, we have tried, over the years, to 
ensure that each one of these areas receives.
    So I just say that to you, Mr. Sullivan, because that is a 
concern that I have, and I think others have as well.
    And Northern Ireland is a good example, where maybe now 
people say, who cares, but it has moved on to a more mature 
area. But in the era of Brexit, there is likely to be an 
exacerbation of tensions that we have not seen in a long, long 
time. And, to be honest, the formation of the new government in 
Great Britain is dependent upon this alliance with the Northern 
Ireland party that may or may not square up with the objectives 
that the United States has been trying to advance over the 
years.
    So I just point that out to you, and I would hope that we 
might be able to get the sequencing correct.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Udall?
    Senator Udall. Mr. Chairman, thank you very much.
    Thank you, Deputy Secretary Sullivan, for joining us today.
    Just this past week, we learned that the State Department 
spent approximately $15,000 at a Trump Hotel in Vancouver when 
the President's daughter stayed there. The Washington Post 
obtained this information via the Freedom of Information Act.
    This use of taxpayer dollars at the Trump Hotel empire 
reminded me of the many questions in an unanswered letter that 
I sent to the State Department, along with several other 
Senators. I am hoping you can help us answer these questions.
    There are properties all over the world with the Trump name 
prominently displayed on them, many in areas that have been 
targeted by terrorist attacks. On March 8, I wrote to Secretary 
Tillerson, along with Senators Whitehouse and Blumenthal, 
asking what, if any, taxpayer resources are being spent to 
secure Trump organization commercial real estate around the 
globe.
    First, will the State Department respond to this letter 
soon? It has already been 4 months since we sent a letter.
    Mr. Sullivan. Yes, Senator. You have my apology that we 
have not responded already. It is important for us to be 
responsive to maintain the trust and confidence of this 
committee.
    Senator Udall. So do you have any timeline on how soon you 
can respond to this?
    Mr. Sullivan. This is the first I have heard of it. My 
apologies. When I return this evening, I will make sure that it 
is acted on soonest.
    Senator Udall. Good. I know you have discussed with me on 
several occasions how important you thought it was for you to 
give us information, because we have a crucial role to play 
under the Constitution.
    Has anyone in the Trump organization or Trump 
administration requested assistance from State to help secure a 
Trump organization property?
    Mr. Sullivan. Not to my knowledge. With respect to the--I 
have seen the press reports on the hotel in Vancouver. I asked 
about it. My understanding is that the State Department, as we 
frequently do, assists other agencies, where we have a 
consulate, in making hotel bookings. My understanding is that 
the bookings that you referred to were for the Secret Service. 
They were not for the State Department.
    We just happened--because we have a consulate there--we did 
not seek out that booking. They were not our people who were 
staying there. So it was for another government agency.
    Senator Udall. So you do not know whether or not anybody in 
the Trump organization or administration requested assistance 
from State to help secure a Trump administration property, but 
you will look into that and get us an answer?
    Mr. Sullivan. Yes, indeed.
    Senator Udall. I am sure you understand the thrust of these 
questions. I mean, I serve on a number of committees. One in 
addition to this is Appropriations. And I really believe that 
taxpayers are entitled to know how their money is being spent. 
Then it is a judgment call for them, really more than anything.
    Has the Department of State rented property or purchased 
additional goods or services from the Trump organization to 
facilitate State Department missions?
    Mr. Sullivan. Not to my knowledge, but I will undertake to 
get a response to that, a definitive response to your question 
promptly, Senator.
    Senator Udall. Okay. And if so, is there an agreement in 
place for the Trump organization to reimburse the Federal 
Government for those costs? I assume you will also get us an 
answer to that.
    Mr. Sullivan. Yes, Senator.
    Senator Udall. There are further questions in the letter, 
but I would like a full written response to these and other 
questions. Since the administration has not responded to our 
letter, I will submit all of these questions for the record and 
hope that you give us a prompt response.
    Mr. Sullivan. You have my word on it, Senator.
    Senator Udall. A number of recent reports have highlighted 
a significant morale problem at the State Department, as well 
as many of the concerns regarding the steep budget cuts being 
proposed at State. The top leadership at State is reportedly 
very isolated from the Nation's diplomats.
    Do you believe that career Foreign Service and civil 
service officers serve an important role in our Nation's 
diplomacy?
    Mr. Sullivan. Unquestionably.
    Senator Udall. And will you increase efforts to integrate 
the new political leadership of the department with career 
staff to best represent America's interests abroad?
    Mr. Sullivan. I will, and I have. I spoke at the Foreign 
Service Institute a couple weeks ago to 700 Foreign Service 
Officers, and I had prepared remarks, and I put them aside. I 
picked up a microphone and I opened it up for questions and 
said, hit me with your best shot, whatever you've got, because 
those men and women are the backbone of the department, and I 
have, and the Secretary has, an enormous amount of respect for 
them and their views.
    Senator Udall. Yes. I could not agree with you more.
    In my travels around the world meeting the people that are 
living in the countries, the various professionals and career 
people are so dedicated to this country and making sure our 
country gets it right in terms of the country they are serving 
in, and getting our foreign policy right. And I want to thank 
you for your talk with them and taking this approach.
    Mr. Chairman, I want to stress that any State authorization 
approved by Congress should include significant oversight 
language to ensure that the Congress has a final say about any 
proposed reorganization of the State Department.
    The Chairman. Thank you very much.
    Senator Cardin?
    Senator Cardin. Secretary Sullivan, I just really want to 
underscore our hope about how you and this committee can work 
together on issues in the State Department.
    The Congress appropriates money. Congress passes statutes. 
The Trump administration, in some cases, has different views 
than that, as we have seen in some of the actions that have 
been taken by the Trump administration. Certainly, their fiscal 
year 2018 budget is different than what Congress did in the 
fiscal year 2017 budget after we had the President's skinny 
fiscal year 2018 budget.
    So we are a coequal branch of government. We expect the 
State Department to implement what Congress has done. So when 
we provide you funds and provide you authority, we expect that 
to be carried out.
    The President has the right to veto. The President can do a 
lot of things. We recognize that. Ultimately, we want to work 
together.
    So when the administration proposed a freeze, and we saw 
what was happening through attrition, it was having some really 
adverse impact. We pointed that out with the Pickering and 
Rangel Fellows.
    And thank you. It was reversed, allowing the fellows to 
join the A-100 class this year. We are pleased about that.
    But as I mentioned in my opening statement, we had a 
challenge before Mr. Trump was elected President of the United 
States in diversity in the State Department. It has been a 
challenge. We have had hearings in Congress on this. We have 
had numerous opportunities to try to improve diversity because 
of the importance in the State Department carrying out its 
mission and its credibly globally for us to show that we do 
represent the global community.
    So can you just give us some assurances, A, that when 
Congress passes appropriations and authorizations, that it 
should be carried out? It should not be ``should.'' That it 
must be carried out by the State Department.
    Secondly, on how you deal with the diversity issue with the 
overriding policies of contraction that is currently the 
pressure that you are under.
    Mr. Sullivan. Sure.
    First of all, Senator, as Deputy Secretary and as a lawyer, 
I can affirm to you that we will comply with the law, execute 
the law, follow the instructions of Congress. We are a Nation 
of laws, and the department abides by the law.
    Senator Cardin. And I know that you will do everything in 
your power to carry that out. That is one of the reasons why we 
were so pleased to support your nomination, and we are pleased 
that you are there.
    I think it is going to be more difficult than just those 
words, so we wish you well. [Laughter.]
    Mr. Sullivan. I will seize on that point, Senator, to 
address your second point. And I said this when I spoke to the 
Foreign Service Institute students. Actions speak louder than 
words, and I can offer all the platitudes that one can think of 
on diversity and how important it is, but actions speak louder 
than words.
    And what I said to the FSI students was that I expect them 
and you to hold us accountable for what we commit to do. We 
commit, I commit, to doing all we can to have a diverse State 
Department. Why? It is the right thing to do as Americans, 
because equal opportunity is enshrined in our Constitution.
    But second, and it is a point you have raised, Senator, it 
is not merely the face we present to the world, but it is doing 
our own jobs, getting input from all of the different races, 
ethnicities, gender. That input makes it easier for us to do 
our job in interpreting what is going on in foreign countries 
and interacting with foreign governments. It is important as a 
policy matter, not just as a moral matter or a legal matter.
    So you have my commitment on that.
    And if I do not follow through, you can bring me back up 
here and tell me where I have fallen down on the job.
    Senator Cardin. Thank you, Mr. Secretary. We appreciate the 
fact that you are there, and we appreciate your commitment to 
these principles.
    The Chairman. I thank you for being here, too. I know that 
we are going to keep the record open until the close of 
business Wednesday. I know there will be a number of questions. 
To the extent you can answer those promptly, we would 
appreciate it.
    I do want to balance out, to a degree, the special envoy 
discussion.
    The listening tour is complete. I know there was an outside 
consultant that generated a report from that listening tour. It 
confirmed what many of us have been hearing for years, and this 
is not at any particular special envoy that I direct this, but 
they do more harm than good. They do more harm than good.
    I think they hurt the culture of our professional Foreign 
Service Officers, candidly, because I think they see them, in 
many cases, as a workaround.
    All of us have been in organizational situations where XYZ 
is in a job. They are not doing the job well, so what do we do? 
We create a workaround, and it hurts the culture. It hurts, 
actually, those professionals that are doing their jobs well. 
And we know that, and they know that. And you all learned this 
from this listening tour.
    So look, it is kind of like base closings. I hear people 
talk about their special issue. You have a base in your home 
State. It is the best base ever, obviously, because you have 
people in your own State employed. But that is what we are 
hearing a lot of, I am sorry, tonight, is a special thing for a 
special state or a special interest.
    I hope we will do away with all of them that are 
unnecessary. And I think most of them are unnecessary, okay? 
And I think the Foreign Service professionals believe they are 
unnecessary.
    We just had one created, unfortunately, for Ukraine. Here 
we have the Secretary of State says that most of these things 
are unnecessary, and then he creates one. Well, this person is 
going to carry out some important policy for our Nation, right? 
I mean, this Ukraine issue is very important.
    If we are going to do that, they ought to at least be 
confirmed. I mean, if we have somebody carrying out policy 
relative to Ukraine, which is important, we ought to be able to 
confirm them.
    So, look, these positions are duplicative. They waste 
money. They have huge staffs. We may end up having some special 
envoys that are important. But just from this one Senator, I 
just get one vote like the other 20 people on the committee, I 
think, mostly, it is a waste of money, a waste of time. It 
hurts our culture. And I hope you will do everything you can to 
do away with most of them, if not all of them.
    So anyway, I hope that is balancing out some of the other 
comments that have been made.
    I thank you for being here today. I thank you for your 
great spirit, if you will, in wanting to work with us. I think 
you are bringing a lot to the department that is needed at this 
particular time.
    So thank you for coming. Please answer our questions 
promptly. The meeting is adjourned.


    [Whereupon, at 6:38 p.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

   Responses to Questions Submitted for the Record by Members of the 
                               Committee

     Responses to Additional Questions for the Record Submitted to 
                John J. Sullivan by Senator Marco Rubio

    Question 1. There are still open vacancies for the Assistant 
Secretary of the Bureau of Democracy, Human Rights, and Labor, the 
Ambassador-at-Large for International Religious Freedom, the Special 
Envoy to Monitor and Combat Anti-Semitism, the North Korea Human Rights 
Special Envoy, and the Special Coordinator for Tibetan Issues--all of 
which are congressionally mandated positions. What is the timeline for 
filling these vacancies?

    Answer. The Department is working closely with the White House to 
identify qualified candidates for our vacant senior leadership 
positions. As additional nominees are announced, the Department will 
work closely with the SFRC and the Senate on the confirmation process.
    Question 2. Does the Department plan to nominate a Special Envoy to 
Monitor and Combat Anti-Semitism? I was troubled to see recent reports 
that as of the first of this month the office is unstaffed. Why has the 
office been unstaffed?

    Answer. We are currently evaluating the utility of the nearly 70 
Ambassadors-at-Large, Special Representatives or Special Envoys that 
exist within the structure of the U.S. Department of State. We want to 
make sure that the responsibility for each issue is appropriately 
placed and aligned with the resources needed to achieve its mission. 
The Special Envoy to Monitor and Combat Anti-Semitism is a statutorily 
required position that will be maintained within the Department. The 
administration considers this a crucial position, and hopes to announce 
an appointment soon. The Department wholeheartedly agrees that the 
United States must continue to send a clear and strong message that 
anti-Semitism will not be tolerated.
    It is important to note that the Office of International Religious 
Freedom in the Bureau of Democracy, Human Rights and Labor is staffed 
with a team of policy experts that currently support efforts to monitor 
and combat anti-Semitism. The Department is monitoring and reporting 
our findings on anti-Semitism, just as we are working to combat anti-
Semitism, both bilaterally and multilaterally. In addition, we are 
maintaining regular contact with Jewish community organizations 
domestically and internationally. In sum, the Department will continue 
to meets its mandate on foreign policy goals that are currently the 
charge of the Special Envoy.

    Question 3. There is currently a Special Advisor for Religious 
Minorities in the Near East and South/Central Asia, but as originally 
envisioned in the authorizing legislation, that role was supposed to 
have the rank of Special Envoy. Is the elevation of that role under 
consideration?

    Answer. Elevation of the Special Advisor to the rank of Special 
Envoy is not yet under consideration. A decision on this issue will be 
made after the Department's ongoing review of theutility of the nearly 
70 Ambassadors-at-Large, Special Representatives or Special Envoys that 
exist within the structure of the U.S. Department of State, including 
the Special Advisor for Religious Minorities in the Near East and 
South/Central Asia, is completed. The Secretary fully intends to 
consult with Congressional committees on positions of interest on those 
mandated by statute to promote maximum effectiveness on behalf of those 
issues. We want to make sure that the responsibility for each issue is 
appropriately placed and aligned with the resources needed to achieve 
its mission.

    Question 4. In 2015, Senator Cardin and I introduced in the Senate 
the Foreign Aid Transparency and Accountability Act, which President 
Obama signed into law last year. I hoped the legislation would help 
improve the accountability of our foreign assistance. I was troubled to 
see a State Department Inspector General report released last month 
sub-titled ``Department of State is Still Unable to Accurately Track 
and Report on Foreign Assistance Funds.'' What is the Department 
specifically doing to improve transparency? Would you provide an update 
on the implementation of the Foreign Aid Transparency and 
Accountability Act?

    Answer. The Department of State takes seriously its responsibility 
for making data on foreign assistance financial activities public and 
continues to make progress on its Foreign Assistance Data Review 
Initiative (FADR).The Department responded to the OIG report on June 8, 
2017. In coordination with Office of U.S. Foreign Assistance Resources, 
the Bureaus of Administration, Budget and Planning, Comptroller and 
Global Financial Services, and the Office of Management Policy, 
Rightsizing and Innovation (as well as other Bureaus with their own 
assistance tracking systems), the Department identified gaps to fill in 
how we tracked this information (Phase 1), and developed a data 
dictionary for each bureau to implement so that we could ensure each 
unique system was tracking similar information (Phase 2). These two 
reports were made public in December 2015 and January 2017, 
respectively. The FADR implementation plan (outlining the steps for 
Phase 3) has been developed, and will be transmitted to Congress 
shortly pursuant to Section 7006(a) of the FY 2017 Appropriations Act. 
The final phase (Phase 4) will implement the changes recommended in the 
Phase 3 plan according to the established timeline.
    With regard to implementation of the Foreign Aid Transparency and 
Accountability Act of 2016 (FATAA), to date, 18 of the 22 agencies 
covered by existing foreign assistance transparency guidelines have 
begun to report data to ForeignAssistance.gov, and have met, at least 
in part, FATAA transparency provisions. ForeignAssistance.gov is 
updated on an ongoing basis as information from agencies is received 
(approximately every two weeks). Agencies provide transaction-level 
(obligation and disbursement) information, along with award-level 
information, including the ID, title, description, and benefitting 
country or region. A clearinghouse to house State's strategies, budget 
documentation, evaluations and other information including lessons 
learned is currently being developed. Additionally, the Department has 
started the process to allow for the unclassified portions of the 
Integrated Country Strategies (ICS) to be made public.
    As for the evaluation component of FATAA, informational sessions 
have been held with all bureaus to convey the requirements of FATAA and 
begin compliance activities. The Department's current Evaluation policy 
has been rated highly by GAO, and the Department is working to expand 
policy to include steps requiring documentation of program design and 
logic models, monitoring plans, and regularly reviews of progress. The 
Department also released the Program Design and Performance Management 
Toolkit (available publically at https://www.state.gov/f/tools/), and 
has begun offering four-day classroom training on strategic planning 
and performance management in addition to ongoing technical assistance 
provided by the Office of U.S. Foreign Assistance Resources and the 
Bureau of Budget and Planning.

    Question 5. One of the recommendations in the State Department 
Inspector General report released last month was for the Deputy 
Secretary ``to assign a senior Department official to oversee the 
process of developing and executing a plan with clear milestones and 
target completion dates to address foreign assistance tracking and 
reporting requirements.'' The Department noted that it would assign 
this position to oversee the process. Has this Department official been 
assigned? What is the status of the process?

    Answer. In the Department's response to the OIG report, we 
concurred with this recommendation, and a senior Department official 
will be assigned to oversee this process. We are still in the process 
of determining who will be selected, and we intend to make a selection 
prior to the end of the first timeline milestone as written in the 
report that was sent to the committees on Appropriations, pursuant to 
section 7006(a) of the FY 2017 State and Foreign Operations 
Appropriations Act.

    Question 6. I know that you just completed a Department-wide survey 
to take the temperature of your workforce. How would you characterize 
the results of the survey? Based on survey results, is morale low? If 
so, why, and what do you intend to do to address the situation? Do 
employees feel like they understand the mission of the Department? Do 
they feel like the important work they do for our country matters? What 
results from the survey surprised you? What results concerned you?

    Answer. In May, as part of an effort to collect feedback on how we 
can think creatively about work process design, we invited all 
Department employees to participate in a survey to shape the future of 
the Department. Over 35,000 employees completed surveys. Based on the 
report of this Listening Tour produced by the consulting firm hired to 
analyze the survey data, the overarching theme identified was the 
extraordinary dedication and patriotism of the men and women in the 
Department and their commitment and confidence in this agency. We will 
conduct a comprehensive review of all the feedback we received so that 
we can develop strategies that will address key concerns articulated by 
the workforce, such as: 1) needing greater clarity about how our 
mission is defined; 2) reducing duplicative layering of work processes 
and approvals; and 3) addressing various leadership and management 
issues. Overall, the feedback we received through the survey was 
extremely valuable and will help us narrow our focus as we identify and 
remove obstacles so that our employees can do their jobs more 
effectively and more efficiently.
    The Listening Tour was the first phase of this process. The 
Department is currently undertaking a redesign, which is an employee-
led initiative jointly conducted by State and USAID to examine how we 
can structure our processes, workforce, and technology to better 
achieve our mission, from which the vision for the future will emerge. 
In July, we convened a group of key leaders from State and USAID--
across Civil and Foreign Services and from a diverse cross section of 
regional and functional bureaus, including individuals in overseas and 
domestic assignments--to articulate core tenets for each organization: 
Purpose, Mission, and Ambition. We have asked for employee feedback on 
these draft mission statements, which will help guide and inspire the 
redesign. We have also launched internal portal websites to continue to 
engage the workforce and provide all employees the opportunity to 
submit suggestions to inform the redesign effort. Recently, Deputy 
Secretary Sullivan conducted a town hall to answer employee questions 
with respect to the redesign effort.
    Our employees are our most valuable resource. Their continued 
engagement and candid input will be vital to the success of the 
redesign effort. We want to ensure that the workforce understands that 
the core values of the State Department have not changed; and that we 
will continue to lead America's foreign policy and create conditions 
for a better, more secure, more prosperous United States. We are 
working on behalf of the American people to carry out the President's 
foreign policies.

    Question 7. As you noted at the hearing, the Department is still 
under a general hiring freeze. I understand that this includes 
promotions and lateral transfers. I'm concerned that when organizations 
institute hiring freezes, the result is often that those who can leave 
do, resulting in a lesser workforce. This would be especially true in a 
situation where promotions and lateral transfers have been halted as 
well. Can you explain to me the rationale behind the continued hiring 
freeze? Why is there a promotion freeze? Are you concerned that you 
will lose your best employees? When do you expect the promotion and 
lateral freeze to end?

    Answer. The President's government-wide hiring freeze was in place 
from January 23 through April 12 of this year. The Secretary chose to 
continue the freeze for the Department of State, with exemptions on a 
case-by-case basis, pending a comprehensive review of the efficiency 
and effectiveness of the Department, which is currently ongoing.
    Continuation of the hiring freeze remains a temporary necessity 
while we assess, through an employee-led redesign process, the current 
and future state of the Department's organization structure and its 
staffing needs. By temporarily halting the movement of people for the 
short period that the redesign is underway, we can be confident that we 
are not placing someone into a position that may be affected by these 
efforts. That said, we also recognize exceptions are occasionally 
needed. To that end, we have granted nearly 1500 exemptions in order to 
support the security, safety, and health priorities of the Department 
and the Secretary continues to receive and review requests for 
exemptions from throughout the Department.
    The importance of these measures has been shared with employees who 
remain engaged and committed to the Department's mission. We are proud 
of our employees and are confident in the quality of our workforce now 
and going forward.

    Question 8. My office has been a beneficiary of the State 
Department's legislative fellows programs. I believe that they provide 
the Department with valuable insight into the legislative process while 
providing offices like mine additional subject matter expertise. Is the 
Department considering decreasing the size of its Congressional 
legislative fellows programs? If so, why?

    Answer. The professional development of Department employees 
remains a high priority. As part of the redesign efforts, we have taken 
a holistic approach to analyzing the various career development 
programs within which Department employees participate. Due to our 
continuing efforts with the Department's redesign, we remain committed 
to the professional growth of our employees and will continue to 
routinely assess future developmental needs and opportunities. However, 
with the mandate to Federal agencies to restructure and identify areas 
for cost savings, along with the budget reductions planned for the 
Department, we expect there will be a reduction in the number of non-
reimbursable detail assignments to other U.S. government agencies and 
offices, which may include Pearson Fellowships.

    Question 9. For years, the Department openly ignored violations of 
the Iran Sanctions Act and issued mandated sanctions reports on the 
Iran, North Korea, Syria Non-Proliferation Act years late. Do you 
commit to fully enforcing the Iran Sanctions Act and other laws that 
impose Iran sanctions? Will you submit the aforementioned reports in a 
timely manner?

    Answer. The Iran Sanctions Act (ISA) is a key piece of the U.S. 
sanctions regime against Iran. The State Department works to faithfully 
execute both the letter and the spirit of all sanctions legislation. In 
order to successfully implement this legislation, the Department of 
State works with various other Departments, the intelligence community, 
and our allies to identify and take actions against any individuals or 
entities found to be violating U.S. sanctions.
    The Department of State views the Iran, North Korea, and Syria 
Nonproliferation Act (INKSNA) as an effective tool for impeding 
proliferation programs of concern. We recognize that reports have been 
late but have worked to minimize delays and comply with INKSNA's 6-
month reporting cycle as we clear the existing backlog. The Department 
delivered the latest INKSNA report, covering CY 2014 activity, to the 
Hill in March 2017. Previously, we delivered additional INKSNA reports 
to the Hill in June 2016, September 2015 and December 2014. We note 
that the transmission of three INKSNA reports covering three years of 
activity within the last 18 months is a strong indicator that the 
Department is making progress towards delivering reports in a timely 
fashion. The Department is preparing to obtain feedback from the 
interagency on the CY 2015 INKSNA report (now that the CY 2014 
decisions can be incorporated into this iteration), and has identified 
the relevant activity for the CY 2016 report.
    We also would highlight the fact that the Department uses INKSNA as 
an effective sanctions mechanism to regularly impose penalties against 
a large number of entities and individuals for engaging in 
proliferation activities. For instance, in March 2017 we imposed 
sanctions against 30 entities and individuals, including 11 for 
supporting Iran's missile program. In fact, since September 2015, we 
have sanctioned over 85 entities and individuals under INKSNA, 
testifying to the Department's robust implementation of this Act as a 
valuable tool to advance U.S. nonproliferation goals.

    Question 10. Have you considered moving the Office of Counter 
Threat Finance and Sanctions from the Bureau of Economic and Business 
Affairs to a more thematically appropriate bureau?

    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. We are looking at 
aligning resources, people, and our overarching mission, including 
restructuring State and USAID's operations, in order to deploy the 
talent and resources of State and USAID in the most efficient way 
possible. We have no preconceived outcomes.
    Sanctions are a critical tool in supporting and advancing U.S. 
foreign policy and national security interests. The Department is 
maintaining vigorous implementation of its sanctions commitments and 
obligations, both domestic and international. The Division of Counter 
Threat Finance and Sanctions (TFS) within the Bureau of Economic and 
Business Affairs (EB) has historically held responsibility in the 
Department of State for internal management of the vast majority of the 
United States' economic sanctions programs. TFS plays a significant 
role in the development of new economic sanctions programs and 
implementation of existing programs, supporting the Department's 
efforts to maximize sanctions pressure on targets and minimize 
unintended consequences. TFS works along with interagency partners 
(traditionally the Department of the Treasury and the Department of 
Commerce) and State's geographic and functional bureaus to conduct 
extensive outreach to both domestic and international business 
communities--as well as governments--to build multilateral coalitions, 
discourage, and disrupt behavior and financial flows that support 
behavior contrary to our interests.

    Question 11. Have you considered consolidating sanctions 
enforcement activities across the government, including possibly moving 
these responsibilities to Treasury, where the bulk of sanctions work is 
already done?

    Answer. Close coordination between the Departments of State and 
Treasury greatly enhances the effectiveness and global impact of U.S. 
sanctions regimes covering more than two-dozen countries, conflicts, 
and/or global phenomena, such as proliferation or terrorism. The 
promotion of U.S. foreign policy goals through sanctions is a complex 
effort, necessarily involving a whole-of-government approach, but is 
and will fundamentally remain a foreign policy issue. For this reason, 
the State Department's role in sanctions policy and outreach is 
critical, and is conducted in close coordination with the Department of 
the Treasury at every level. This enhances both U.S. sanctions' 
effectiveness and global impact.
    In addition to exercising the independent sanctions authorities 
maintained by State related to terrorism, international security, and 
non-proliferation, the State Department handles the bulk of the 
diplomatic engagement necessary for the enactment and implementation of 
sanctions programs covered by both Departments. The global reach of the 
State Department's worldwide missions, our extensive high-level 
contacts with foreign partners, and the diverse technical skill sets of 
State personnel on such issues as nonproliferation, export controls, 
and counterterrorism are critical to successful sanctions 
implementation. As a result, the State Department remains at the 
forefront of maintaining the integrity and vitality of U.S. sanctions 
programs at both the strategic and tactical levels, advancing U.S. 
foreign policy and national security objectives.
    Foreign engagement on sanctions is enabled by well-established, 
longstanding State Department and Treasury processes for obtaining 
downgraded intelligence information to share with foreign counterparts 
to press them to implement sanctions, adopt parallel sanctions 
measures, and stop sanctionable activities, such as proliferation-
related technology transfers, before designations are imposed. This 
engagement is critical to gaining meaningful support for U.S .and 
multilateral sanctions. In addition, the State Department is also best-
suited to ensure that sanctions designations and related enforcement 
activities fully support broader foreign policy equities and goals. We 
understand potential sanctions targets' economic and political 
vulnerabilities and consult with Treasury to avoid unintended 
consequences that would unnecessarily harm American interests. In 
addition, State's Bureau of Economic and Business Affairs routinely 
develops and conducts outreach, both jointly with Treasury and on its 
own, to the international business community and with governments to 
encourage compliance with sanctions.
    The Department of the Treasury is also responsible for sanctions 
administration and enforcement, including specifically involving the 
technical implementation of the legal and regulatory requirements. 
Sanctions enforcement may include conducting civil law enforcement 
investigations against any persons that commit or engage in violations; 
issuing designations; maintaining the Specially Designated Nationals 
and Blocked Persons (SDN) List and other sanctions related lists; and 
engaging with domestic and international constituencies as to the 
nature, scope, and applicability of sanctions. Cooperation between our 
Departments is extensive and critical. However, the State Department's 
policy perspective, expertise, and operational reach cannot be 
duplicated by Treasury and is essential to the success of U.S. economic 
and trade sanctions. Sanctions are a tool of diplomacy best guided by 
those whose sole remit is the conduct of foreign affairs on behalf of 
the United States.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             John J. Sullivan by Senator Benjamin L. Cardin

Consular Affairs and Population, Refugees, and Migration Bureaus
    Question 1. One proposal under consideration as part of the 
administration's efficiency review process is to move the State 
Department's Consular Affairs and Population, Refugees, and Migration 
Bureaus to the Department of Homeland Security. I am pleased that 
Secretary Tillerson opposes this shift and believes this work is 
``essential to the Department's mission.'' These diplomatic and 
humanitarian functions should remain with the State Department, which 
has the experience, personnel, and regional knowledge needed to carry 
out consular and refugee affairs. Can you expand on why is it so 
critical for these functions to remain under State Department 
leadership?

    Answer. Decisions on passport and visa operations can have profound 
implications for foreign and economic policy in addition to security. 
The Department's cadre of local language trained Foreign Service 
Officers, Consular Fellows, Civil Servants, and Local Employees bring 
skills in dealing with foreign governments, along with broad knowledge 
of regional and local cultures to visa and passport decisions.
    Responding to refugee crises requires a combination of efforts to 
meet refugees' immediate needs, support countries to which refugees 
have fled, use diplomacy to seek political solutions that will allow 
refugees to return home, and provide resettlement to those who cannot 
return home or survive in the location to which they have fled. PRM is 
a critical component of an efficient system at State that contains the 
full range of responses to refugee crises: diplomatic, resources, and 
resettlement. Humanitarian crises are the results of political crises, 
often in areas of national security interest to the U.S. (e.g., Syria, 
Iraq, Ukraine, and South Sudan), and require political solutions. State 
is best situated to coordinate our diplomatic, assistance, and national 
security efforts to achieve these solutions.

    Question 2. There has been a suggestion that as part of the 
reorganization, Consular Affairs (CA) and the office of Population 
Refugees and Migration (PRM) be moved wholesale from the State 
Department to the Department of Homeland Security (DHS). The proposed 
move of CA and PRM to DHS would effectively kill these important 
programs. Do you support moving these programs out of the State 
Department?

    Answer. We do not support moving these programs out of the State 
Department. The functions of both the Bureau of Consular Affairs (CA) 
and the Bureau of Population, Refugees, and Migration (PRM) are vital 
to the Department's mission to secure our borders and protect the 
American people. The Secretary believes that the State Department is 
the rightful home for both bureaus.
    U.S. border security depends on a system of ``layered defense'' for 
maximum effectiveness, and the current system of vetting and 
adjudicating visas has built-in checks that strengthen our national 
security. DHS sets visa policy, CA vets applicants' biometric and 
biographic data against U.S. law enforcement and intelligence community 
databases, and consular officers review the vetting results and use 
their regional and in-country knowledge to interview applicants and 
determine their eligibility for a visa in accordance with U.S. 
immigration law. If the intending traveler is found eligible and issued 
a visa, DHS then vets inbound passengers before they board flights, and 
at U.S. ports of entry. Visa and passport data is widely shared with 
law enforcement and intelligence agencies, and all visas are subject to 
continuous interagency vetting. CA's Visa Office can revoke a visa at 
any time should information arise suggesting the visa holder may no 
longer eligible for the visa. We believe that every adjudication action 
is a national security decision and utilize our unique corps of 
language-trained and internationally-experienced staff to make the most 
accurate decisions.
    Responding to refugee crises requires a combination of efforts to 
meet refugees' immediate needs, support countries to which refugees 
have fled, use diplomacy to seek political solutions that will allow 
refugees to return home, and provide resettlement to those who cannot 
return home or survive in the location to which they have fled. PRM is 
a critical component of an efficient system at State that contains the 
full range of responses to refugee crises: diplomatic, resources, and 
resettlement. Humanitarian crises are the results of political crises, 
often in areas of national security interest to the U.S. (e.g., Syria, 
Iraq, Ukraine, and South Sudan), and require political solutions. State 
is best situated to coordinate our diplomatic, assistance, and national 
security efforts to achieve these solutions.

    Question 3. As you consider whether or not it makes sense to fold 
USAID into the Department of State, what is your understanding of the 
differences and similarities in the disciplines of development and of 
diplomacy? Given that these are different undertakings, at least in my 
view, as an organizational and management issue, how would you 
reconcile them in one institution and expect success?

    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. The Department of 
State (Department) and U.S. Agency for International Development 
(USAID) are working to meet this deadline and have begun to discuss 
goals, priorities and the strategic direction of the organizations to 
adapt to the changes that we will face over the next twenty years. We 
are looking at aligning resources, people, and our respective missions, 
including restructuring the Department and USAID's operations, in order 
to deploy the talent and resources of the Department and USAID in the 
most efficient way possible. This review has no preconceived outcomes.
    The general intent for this review is to engage the Department and 
USAID community to design how the agencies will function for the next 
twenty-plus years. We look forward to keeping the committee and others 
in Congress informed throughout this process. The recommendations, 
blueprints, and new vision that emerge from the redesign endeavor will 
be presented to OMB in September as part of the requested Agency Reform 
Plan, and will be fully discussed with the committee and others in 
Congress before implementation begins in FY 2018.
    There is no intention or plan to fold USAID into the State 
Department.

    Question 4. The ``Listening Report'' for the State Department and 
USAID commissioned by Secretary Tillerson found that USAID employees 
are deeply concerned by proposals that could reduce the agency's 
autonomy as part of the Department's ``efficiency review'' process. Are 
proposals to merge USAID into the State Department or reduce the 
agency's autonomy under consideration as part of your review? As the 
head of this review process, how will you work to address employee 
concerns regarding the future of USAID?

    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. The Department of 
State (Department) and U.S. Agency for International Development 
(USAID) are working to meet this deadline and have begun to discuss 
goals, priorities and the strategic direction of the organizations to 
adapt to the changes that we will face over the next twenty years. We 
are looking at aligning resources, people, and our respective missions, 
including restructuring the Department and USAID's operations, in order 
to deploy the talent and resources of the Department and USAID in the 
most efficient way possible. This review has no preconceived outcomes.
    The general intent for this review is to engage the Department and 
USAID community to design how the agencies will function for the next 
twenty-plus years. We look forward to keeping the committee and others 
in Congress informed throughout this process. The recommendations, 
blueprints, and new vision that emerge from the redesign endeavor will 
be presented to OMB in September as part of the requested Agency Reform 
Plan, and will be fully discussed with the committee and others in 
Congress before implementation begins in FY 2018.
    There is no intention or plan to fold USAID into the State 
Department.

Reorganization Process
    Question 5. You are currently leading a massive effort to comply 
with the President's Executive Order on reorganizing the federal 
government. So far, this has included soliciting input from Department 
personnel and hiring outside organizations to make recommendations. Can 
you talk about this process and the next steps? How are you planning to 
seek additional input throughout the reorganization/reform process, 
including from Congress and the stakeholder community? Will you commit 
to working with this committee to ensure sustainable reforms to the 
State Department and our foreign assistance agencies?

    Answer. We are committed to working with this committee to ensure 
sustainable reforms, and to keep the committee and others in Congress 
informed through this redesign process.
    The second phase of our efficiency redesign/review started in 
earnest the week of July 10. I chair an Executive Steering Committee, 
which provides guidance to five working groups, each of which is 
jointly chaired by State and USAID and consists of State and USAID 
employees. The participants consist of career staff at State and USAID, 
and a mix of Foreign Service and Civil Service, and representation from 
both the field and Washington. Each workstream also has one non-career 
employee. The working groups will be calling on subject matter experts 
as they delve into specific subjects and processes. We will work full 
speed ahead for the next six weeks and produce a report for OMB in 
September.
    Our goal is to keep our employees, and you, informed as to the 
process, and to provide an opportunity to solicit input and 
suggestions.

    Question 6. The process for consideration of State Department 
Reorganization inside the Department has appeared--from outside the 
Department--to be a little chaotic thus far. There has been a listening 
tour. There has been a workforce survey. Outside consultants have been 
hired. Several working groups have now been formed. There are the OMB 
taskers, with the June 30 deadline for the first set of 
recommendations. It is hard to understand how all these pieces fit 
together. Can you explain to us your understanding of how all these 
different elements are going to create a coherent and constructive set 
of recommendations?

    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. We are looking at 
aligning resources, people, and our overarching mission, including 
restructuring State and USAID's operations, in order to deploy the 
talent and resources of State and USAID in the most efficient way 
possible. We have no preconceived outcomes.
    In the first ``listening'' phase of this discussion, we engaged 
Insigniam, a consulting firm that specializes in transformation, to 
conduct a survey made available to all of our State and USAID 
colleagues, including employed family members, locally-engaged staff, 
and contractors. The surveys and listening sessions, all of which 
occurred in early-mid May, collected information on our organizational 
processes and culture, including what activities to eliminate, ideas 
for restructuring the organization, ideas for improving organizational 
efficiency and effectiveness, and workforce management. We are using 
the results of Insigniam's report as input to efficiency improvements 
as part of our larger efforts called for under E.O. 13781.
    The second phase of this efficiency review is framing the redesign 
effort itself, which involves representatives of the State and USAID 
community to design how the agencies will function for the next twenty-
plus years. I chair an Executive Steering Committee, which provides 
guidance to five workstreams, each of which is jointly chaired by State 
and USAID and consists of State and USAID employees. The workstreams 
will build out high-level execution plans consistent with the overall 
vision of the effort and the objectives of the Executive Steering 
Committee. The resulting blueprints will identify key activities and 
milestones for implementation over subsequent months and years, as well 
as the budget needed to execute the ideas. As the working group teams 
build out their blueprints, others will begin prototyping the 
organizational design, which will support the vision of how the work is 
being performed overseas. The recommendations, blueprints, and new 
vision for the organizational chart will provided in the final Agency 
Reform Plan due to OMB in September.
    We will keep the committee and others in Congress informed 
throughout this redesign process.

Preliminary Reform Plan
    Question 7. Given the complexity of the planned reorganization 
process, it would be extremely helpful to understand the Department's 
priorities thus far. Under the OMB's April 2017 memo, each agency was 
required to submit a high-level draft of its reform plan by June 30. 
Will you provide a copy of that June 30 plan with the committee? You 
may submit it with your responses or arrange for staff to receive it 
separately.

    Answer. We will continue to work with your staff on keeping them 
apprised of the redesign process.

Reorganization Authorities/Legislative versus Administration 
        Authorities.
    Question 8. How do you plan to work with this committee and with 
Congress more broadly to approach reorganization matters, both for 
those issues that require legislative approval or action as well as 
those issues that you can address by administrative fiat--but where I'd 
suggest that partnership with Congress is a much better and more 
sustainable approach? Will you submit legislation proposing specific 
reorganization changes to the Department? What do you think you can do 
administratively, without legislation?

    Answer. Our review has no preconceived outcomes. We will submit to 
OMB in September a final Agency Reform Plan with recommendations, 
blueprints, and new vision for the organizational chart. We will keep 
the committee and others in Congress informed throughout the process.
    Following discussions with OMB about which reforms to act upon, we 
will again consult with the committee and with Congress before taking 
administrative action. We anticipate that some reforms may require 
legislative action, on which we will work closely with you.

Hiring Freeze Impact
    Question 9. Despite the fact that the President and OMB lifted the 
government-wide hiring freeze in April 2017, the freeze remains in 
effect for many positions at the State Department. While I understand 
the Department's desire to engage in a thorough review before making 
recommendations regarding any reorganization, I am concerned about the 
impact the freeze may have on the Department's mission and 
effectiveness, especially as employees in leadership positions leave 
and critical positions remain unfilled. In addition, I am concerned 
about the effect that the limits on hiring for Eligible Family Members 
are having on our ability to fill and retain Foreign Service Officers 
in critical postings. Can you explain which positions are currently 
subject to the freeze or limited hiring, and why? In addition, please 
address any planned changes to the freeze, as well as any exceptions 
that have been made.

    Answer. The President's government-wide hiring freeze was in place 
from January 23 through April 12 of this year. At the end of the 
government-wide freeze, the Secretary chose to continue the Department 
freeze, with exemptions on a case-by-case basis, pending the completion 
of the ongoing comprehensive review of the efficiency and effectiveness 
of the Department. Through these efforts, he aims to make the 
Department of State lean, accountable, and more efficient. Continuation 
of the hiring freeze is a necessary, but temporary part of that effort. 
We have granted several hiring exemptions in order to support our 
safety, security, and health responsibilities, and we continue to 
review hiring freeze exception requests on a case-by-case basis. While 
we continue to compile the data, we expect that approximately 1,466 
hiring freeze exemptions will be approved by August 10. These include 
Civil Service, Foreign Service, Consular Fellows, Eligible Family 
Members (EFM), and Locally Employed Staff. Of these exemptions, we 
expect that approximately 763 will be for EFMs. EFM exemptions are 
granted on a global basis based on priorities submitted by each 
Regional Bureau.

FY 2017 Appropriations Requirements
    Question 10. How do you intend to meet the requirements of the FY 
2017 appropriations law that requires notice and consultation of the 
Congress for any office creation, renaming, or shifting of personnel? 
What does meaningful consultation look like?

    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We have 
been in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and will notify and report on planned organizational changes as 
a result of the redesign process consistent with sections 7015 and 
7034(l) of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2017 (Division J, P.L. 115-31). At the end 
of this process, our goal is to ensure the State Department and USAID 
are better equipped to address the foreign policy challenges of the 
United States.

Working Groups
    Question 11. Secretary Tillerson has tasked you to lead a working 
group focused on reform in five key areas: overseas operations, foreign 
assistance programs, technology, staffing, and administration. Could 
you share some more details on this working group, including its 
composition and the range of voices that will be represented? Will you 
commit to briefing this committee on the working group's 
recommendations?

    Answer. The second phase of our efficiency redesign/review began 
the week of July 10. The Executive Steering Committee, which I chair, 
meets weekly. There are five working groups: 1) overseas alignment and 
approach, which will assess key diplomatic activities and identify 
required platforms, including the balance of work between Washington 
and the field; 2) foreign assistance, which will analyze current 
foreign assistance programs at State and USAID to develop a future 
vision, ensuring alignment with national priorities; 3) human capital 
planning, which will identify ways to promote an agile and empowered 
workforce as part of an overarching talent map; 4) IT platform 
planning, which will focus on improving the employee experience through 
increased use of cutting-edge technology and streamlining duplicative 
systems and processes; and 5) management operations, which will 
identify opportunities to streamline administrative support functions 
at the bureau and agency levels to ensure front-line effectiveness.
    These working groups are jointly chaired by State and USAID. To 
select the team members, the Department sought out nominations of 
current and new up-and-coming leaders in the Department. 181 Department 
employees were nominated by bureaus. This project will engage 
approximately 60 of those full-time on the working groups and another 
40-60 for shorter-term activities. The participants consist of career 
staff at State and USAID, and a mix of Foreign Service and Civil 
Service, and representation from both the field and Washington. Each 
workstream also has one non-career employee. The working groups will be 
calling on subject matter experts as they delve into specific subjects 
and processes. We will work full speed ahead for the next six weeks and 
produce a report for OMB in September.
    The working groups' discussions are considered sensitive but 
unclassified, deliberative and pre-decisional. Thus, while the content 
will not be shared outside of the participants, our goal is to keep our 
employees, and you, informed as to the process, and to provide an 
opportunity to solicit input and suggestions.

Regional and Functional Bureau Coordination
    Question 12. During your nomination hearing before this committee 
in May, you stated that the reorganization effort should enhance 
coordination between regional and functional bureaus at the State 
Department to address transnational threats and new means of 
communication and technology. Could you share an example of a proposal 
under consideration to improve coordination between bureaus?

    Answer. The second phase of our efficiency redesign/review started 
in earnest the week of July 10. Our review has no preconceived 
outcomes. One of the workstreams, overseas alignment and approach, 
which will assess key diplomatic activities and identify required 
platforms, including the balance of work between Washington and the 
field, as well as the formation and execution of foreign policy in 
Washington. We anticipate that this workstream will generate ideas to 
enhance coordination between regional and functional bureaus at the 
Department.

Information Security
    Question 13. My understanding is that one of the five new 
management reorganization working groups recently established is 
intended to look at information technology and information security 
issues. This is an area that has been a constant source of tension for 
the Department in recent years, where changing technology, the demands 
of policy, and resource constraints have at times forced the department 
to seek work-arounds that create, at least at times, risk of 
information spillage or vulnerabilities that hackers can exploit. What 
efforts are you undertaking as part of the budget proposal or in the 
contemplated management reforms to assure that State personnel have the 
communications equipment that they need in order to be able to function 
effectively to conduct our nation's diplomacy?

    Answer. The second phase of our efficiency redesign/review started 
in earnest the week of July 10. Our review has no preconceived 
outcomes. One of the workstreams, IT platform planning, will focus on 
improving the employee experience through increased use of cutting-edge 
technology and streamlining duplicative systems and processes. We 
anticipate that this workstream will generate ideas to ensure that 
State personnel have the communications equipment that they need in 
order to be able to function effectively to conduct our nation's 
diplomacy.

Nominations
    Question 14.  There is mounting concern, both on Capitol Hill and 
around the world, that the Department of State lacks nominees for a 
large number of the senior officials critical for the Department's 
work. Additionally, the lack of nominees to fill Ambassadorial posts 
for key allies around the world is perplexing. The Senate cannot move 
to confirm nominees we do not have. There are also press reports that 
you intend to leave these positions unfilled as you continue to conduct 
a management review. While I have the utmost respect for the career 
professionals at the Department, they will also be the first to tell 
you that there is no substitute for senate-confirmed senior officials. 
What the logic is for the nominations that the Department has put 
forth, prioritizing for example the Bahamas over Korea, New Zealand 
over Mexico or India, and with only one senior management position 
filled? What are your plans for filling these positions? Do you 
perceive any damage to the Department's functioning--either its ability 
to conduct foreign affairs, its ability to participate in the 
interagency process, or for staff morale and effectiveness--the longer 
these jobs remain unfilled? Has the department been able to complete 
the mission Secretary Tillerson has proposed without senior staff 
providing guidance?

    Answer. The Department is working closely with the White House to 
identify qualified candidates for our vacant senior leadership 
positions. The White House announced or nominated 44 individuals for 
senior Department leadership positions, both domestic and overseas; 23 
of these have been confirmed. We have a deep bench of experienced 
career professionals serving in key positions that are highly capable 
and able to help the Secretary lead the Department and advance U.S. 
interests worldwide.

Pickering and Rangel Fellows
    Question 15. Diversity in the Foreign and Civil Service is not only 
one of the best ways of representing our values abroad it is also a 
national security imperative. I wanted to thank the State Department 
for reversing its decision to prevent the Pickering and Rangel Fellows 
from joining their A-100 class this year. The Fellows should not have 
been put in this position in the first place and it speaks to 
unintended consequences of a poorly thought out hiring freeze and 
budget cut. In addition personnel actions such as hiring and lateral 
move freezes and blocking of promotions--all of those have an impact on 
the retention of diverse foreign and civil servants as well. How do you 
plan on committing to the retention of diverse foreign and civil 
service employees while at the same time making drastic cuts and 
changes to personnel policy which are causing the attrition of diverse 
applicants?

    Answer. The Department of State is committed to the Pickering and 
Rangel programs as our premier diversity recruitment programs. The 
Department has offered eligible Fellows Foreign Service officers spots 
in the July and September 2017 A-100 classes. We value these talented 
individuals and the skills they bring into the Department. They also 
will benefit over the coming months from our redesign effort, which is 
focused on improving the way each of us, individually and collectively, 
deliver on our State Department mission, here and abroad.
    The Department's commitment to shape and build a more diverse and 
inclusive organization is long-standing; it is also a constant 
process--whatever progress we make, there is still more to do. The 
Department is committed to ensuring that any reduction in budget and 
personnel does not negatively affect the Department's diversity, 
inclusion and retention efforts.
    We are determined to preserve the pipeline of our future leadership 
and to support all employees. The Department will continue to provide 
mentoring and career development counseling to help employees develop 
the skills necessary for advancement while strengthening the leadership 
and adaptive capacity of our workforce. The Office of Civil Rights and 
the Bureau of Human Resources work closely with employee associations 
and employee affinity groups to amplify their engagement. The 
Department's 13 Employee Affinity Groups (EAGs) serve as a link between 
diverse employee constituencies and the Department's senior management. 
To increase mid-level opportunities for professional development, the 
Department partnered with the International Career Advancement Program 
(ICAP)--a professional leadership development program for highly 
promising mid-career Civil Service and Foreign Service employees.
    Reflecting the diversity of the United States strengthens our 
ability to confront the array of increasingly complex international 
challenges and allows for a wide range of ideas and perspectives to 
find creative solutions. The Department continues to enhance our 
diversity efforts to better reflect the image of the American 
population.

    Question 16. The way in which the Department dealt with the Rangel 
and Pickering Fellows over the past few weeks, suggests that the 
administration is not actually looking at functions in a sustained and 
systematic way, where I think there is a reasonable discussion to be 
had, but rather has already determined that it wants to get the square 
peg into a round hole. How do you plan to address the long-term 
solvency of the Pickering and Rangel Fellow program at the State 
Department? And furthermore, does your working group, which is focused 
on the reorganization, have any plans to address the continued issues 
with a lack of diversity at the State Department?

    Answer. The Department of State's Redesign effort is focused upon 
making our Agency more efficient and effective. We have no preconceived 
ideas about the final result, but rather have established that the 
cornerstone of the re-design effort is the input and feedback received 
from the Department's own employees. The redesign effort is being led 
by a diverse group of employees in five work streams, and draws upon a 
broad cross-section of the Department's expertise, with participation 
from Washington and posts overseas.
    The Department is committed to Pickering and Rangel fellows as our 
premier diversity recruitment program. The Department has offered 
eligible Fellows Foreign Service officers spots in the July and 
September 2017 A-100 classes. The Pickering and Rangel 2018 cohorts are 
already moving forward, and thus, will be feeding the Foreign Service 
with diverse candidates through 2020. We value these talented 
individuals and the skills they bring into the Department.
    The Department has a long-standing and enduring commitment to shape 
and build a more diverse and inclusive organization. Embracing 
diversity enhances the development of human capital resources to 
increase proficiency levels, promote a workplace culture that values 
the efforts of all members, and enhance the professional experience of 
our valued employees. Having a diverse set of views and backgrounds 
increases our effectiveness as it allows us to interpret what's going 
on in foreign countries and improves our interactions with foreign 
governments. It's as important as a policy matter as it is a moral and 
legal matter.

Anti-corruption language in State Authorization Bill
    Question 17. Based on the proposed text of the bill do you believe 
the State Department has all the tools necessary to properly support 
combatting corruption worldwide? If not what more can the United States 
do to be a leader on this issue? Have you had a chance to review the 
proposed text that Senator Corker and I are working on for the State 
department Authorization bill? What are your views on the approach we 
are seeking to adopt?

    Answer. The Department of State is working to fight corruption 
globally, primarily through the Bureau of International Narcotics and 
Law Enforcement Affairs (INL), the Bureau of Democracy, Human Rights, 
and Labor (DRL), and the Bureau of Economic and Business Affairs (EB). 
The Department recognizes that public corruption adversely affects 
stability and security around the world by undermining faith in 
governments, distorting normal economic market forces, facilitating 
insurgent/terrorist activities and the trafficking of narcotics, 
wildlife, and persons, and aiding the ability of criminal organizations 
to profit from illicit activities.
    The Department of State utilizes a variety of tools to meet the 
global challenges created by public corruption. Specifically, through 
INL funding and subject matter expertise, we have developed 
relationships with stakeholders around the world to build partner 
nation capacity to combat corruption with projects that enhance 
transparency and accountability in criminal justice institutions. We 
also support civil society by developing their capacity to act as 
government watchdogs with access to government officials and the 
credibility to report on corrupt practices. INL works multilaterally to 
implement international conventions such as the United Nations 
Convention against Corruption (UNCAC) and visa and financial sanctions 
under the Global Magnitsky Act in close coordination with the 
Department of Treasury's Office of Foreign Assets Control. We will 
continue to advance multilateral engagements via the Conference of 
States Parties to the UNCAC, the Open Government Partnership, and the 
G20 Anti-Corruption Working Group, among others. We will also continue 
to integrate anti-corruption considerations into economic diplomacy and 
security sector assistance and look for ways to maximize efficiency, 
ensure program effectiveness, and maintain flexibility to respond to 
shifts in the global anti-corruption environment.
    The Department of State coordinates internally and across the 
interagency on anti-corruption matters. We work very closely with the 
Department of Justice (DOJ) to deconflict potential visa sanctions with 
on-going DOJ investigations or trials. Domestically, Department Points 
of Contact (POCs) meet regularly to share information, discuss 
sanctions options, and exchange best practices in foreign assistance 
programming. Overseas, POCs report on corruption developments with 
direct contact with government interlocutors, grantees, and civil 
society organizations. The strategic deployment of Department of State 
anticorruption POCs demonstrates the U.S. government's interest in 
fighting corruption and is in the best interest of the United States 
and the countries where we work.
    Regarding the proposed anti-corruption language included in the 
Department of State Authorities Act for Fiscal Year 2018, we welcome 
the reliance on World Bank indicators already in use by the Millennium 
Challenge Corporation as a means of identifying countries where 
additional risk monitoring and mitigation is appropriate. However, we 
believe the draft legislation would place an undue burden on report 
drafting, which could impact bilateral relations with select countries 
and even our closest allies. Instead, we propose a greater emphasis on 
the programming necessary in countries to effect change. Other 
suggestions in the proposed legislation are more easily accomplished 
and even already implemented. For example, since 2011, INL has trained 
over 200 State Department employees through an anticorruption course at 
the Foreign Service Institute. We are expanding this effort by 
integrating anticorruption into additional courses and providing the 
anticorruption course to officers going overseas.

State Department Consultations on State Authorization
    Question 18. As you have heard today, the committee is continuing 
to move forward on the State Department Reauthorization process. The 
State Department has provided valuable feedback already on some of the 
proposed text, do you commit to continuing this practice in the future?

    Answer. As in years past, we will continue to work with the 
committee on pursuing legislative priorities for the Department of 
State. The Department wants to make the best use of our resources, 
maximize the use of existing flexible authorities, and seek any others 
necessary for effective and efficient diplomacy during the review of 
our structure, our management, and operations.

    Question 19. There is a growing body of evidence that poor 
governance--marked by high corruption and lack of government 
transparency--is a key driver of fragility and political instability in 
many parts of the world today. Citizens frustrated by government 
corruption, repression, and a loss of dignity and hope are more likely 
to tolerate or support violent extremist groups such as Al Qaeda, ISIS 
and Boko Haram. Obviously, this jeopardizes both the United States and 
its allies. At your confirmation hearing, you committed to me that you 
would ensure that anti-corruption initiatives at the State Department 
receive the funding they deserve. Can you explain to the committee how 
the administration's budget prioritizes anti-corruption?

    Answer. The State Department has long recognized the danger that 
corruption poses to the national security and economic interests of the 
United States. Recent events, from the so-called Panama Papers to the 
Odebrecht cases, illustrate corruption's continuing global incidence 
and impact. Aside from these high-profile cases, in many countries, 
transnational criminal organizations rely on corruption to operate with 
impunity. Corruption also facilitates other crimes that the United 
States works hard to combat, including the trafficking of drugs, 
humans, and wildlife. Corruption undermines the level playing field and 
sound market conditions that U.S. businesses rely upon to successfully 
operate abroad. Recognizing the role corruption plays in all these 
threats, the Department is continuing to tackle the issue through a 
variety of foreign assistance programs not only focused on 
anticorruption directly, but also promoting the rule of law, democratic 
governance, and transparent and accountable governments.
    In the FY 2018 Congressional Budget Justification, the State 
Department requested $1.6 billion in democracy, human rights, and 
governance assistance, which includes programs that fight corruption. 
This builds upon the approximately $250 million we have dedicated to 
fighting corruption in FY 2015 and FY 2016. This request reflects a 
focused approach, supporting a variety of programs designed to build 
the capacity of foreign governments to create stronger laws and more 
effective institutions; investigate, prosecute, and secure convictions 
for corruption offenses; and put in place measures to prevent 
corruption, foster oversight, and promote government integrity and 
transparency. Assistance will also support efforts to foster greater 
cooperation between U.S. law enforcement and their foreign 
counterparts, engage non-government stakeholders, and build pressure 
for reform through anti-corruption monitoring mechanisms.
    The Department will also continue broader programmatic and 
diplomatic efforts that fight corruption by combating crime and 
promoting the rule of law. These programs contribute to the goal of 
promoting the principles of transparency, accountability, and 
integrity, which are critical to preventing and combating corruption. 
This assistance will be dedicated to, among other things, increasing 
citizen participation and oversight, professionalizing law enforcement 
and judicial officials, supporting a free media, and combating 
transnational organized crime and other criminal activity that draws 
upon corruption to advance its goals. Our efforts will also accelerate 
and scale the work of investigative journalists who excel in uncovering 
corruption. We will continue to provide targeted support for advocacy 
efforts at the local, regional, and global level to press for stronger 
enforcement of existing laws and regulatory changes to strengthen the 
integrity of financial and legal systems.
    As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
make some tough choices about our approaches and programming 
priorities. We will strategically allocate our resources to our most 
important policy priorities. It is also important to highlight that 
resources do not equate to outcomes, nor the entirety of our commitment 
to these efforts. Overall, our ambassadors and our diplomats will also 
continue to advance democracy, human rights, and governance objectives 
globally.

Economic Support and Development Fund (ESDF)
    Question 20.  I strongly believe that the goal of U.S. assistance 
should be to help partner developing countries transition to self-
sustaining and prosperous nations. I recognize that the U.S. cannot 
feed every hungry child, we cannot prevent every mother from dying in 
childbirth, we cannot help support every human rights defender, and we 
cannot help every farmer increase her crop yields, but your proposed 
budget would abruptly cut millions of people off life-changing and 
life-saving assistance. The administration's budget proposes to 
eliminate the Development Assistance account at USAID and the Economic 
Support Fund at State, and instead create a new Economic Support and 
Development Fund (ESDF). The budget for the new ESDF amounts to a 
roughly 40 percent cut to the total budgets for ESF and DA for FY 2017, 
and an even steeper cut to development assistance of roughly 60 
percent. What criteria will you use to prioritize funding? How will you 
engage private sector and other donors to ensure that the reduced U.S. 
investments are leveraged appropriately to make the maximum possible 
impact? What is your strategy to ensure that partner countries can 
transition off U.S. assistance, where applicable?

    Answer. The Agency will use the FY 2018 President's Budget request 
to guide prioritization of programs and operations that defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer.
    We will continue to engage the private sector and other donors. 
USAID Missions will continue to partner with our key allies and host 
country governments with a focus on protecting Americans and American 
interests, advance bilateral partnerships, open new markets for U.S. 
businesses, and promote American interests abroad, in line with the 
administration's budget priorities.
    Per the FY 2016 Department of State, Foreign Operations, and 
Related Programs Appropriations Act, any bilateral country assistance 
strategy developed after the enactment of the Act must include a 
transition plan. In accordance with the law, the Agency continuously 
evaluates opportunities to transition the nature of its relationship 
with a partner country as part of its country strategy development 
process.

Democracy and Governance
    Question 21. Assistance for Democracy, Rights, and Governance pays 
dividends. In recent years we have witnessed gains in Colombia, 
Myanmar, Nigeria, Lebanon, Sri Lanka, and Tunisia, among others. How 
will this administration support these positive trends and support 
fragile states headed in the right direction?

    Answer. Supporting countries in strengthening democracy, human 
rights, and governance (DRG) is critical for defending national 
security, fostering economic opportunities for the American people, 
asserting U.S. leadership and influence, and ensuring effectiveness and 
accountability to the American taxpayer. It is also fundamental to 
reducing fragility, which reflects weak governing institutions, and a 
fragmented society, or broken social compact--or a combination thereof 
in the relationship between society and the state. As has been the case 
for many years, DRG programs implemented by both USAID and the State 
Department seek to build the accountability, transparency, and 
responsiveness of democratic governing institutions; foster respect for 
human rights and the rule of law; fight corruption; promote citizen 
participation and engagement in good governance and rule of law; and 
strengthen civil society organizations and independent media. These 
programs are foundational to sustainable development and, coupled with 
sector-specific programs such as health, economic growth, and food 
security, help reinforce the positive gains made by countries such as 
Tunisia, Nigeria, Myanmar, and Colombia.
    As we work to streamline efforts to ensure efficiency and 
effectiveness of U.S. taxpayer dollars, we acknowledge that we have to 
make some tough choices about our approaches and programming 
priorities. We will strategically allocate our resources to our most 
important policy priorities. It is also important to highlight that 
resources do not equate to outcomes nor the entirety of our commitment 
to these efforts. Our Ambassadors and our diplomats also advance DRG 
objectives in country.

    Question 22. If the goal of our global health programming is to 
``graduate'' countries off of U.S. assistance by helping them develop 
strong, sustainable health systems, please discuss how a 26 percent 
reduction in State and USAID global health programs will help us 
achieve that goal.

    Answer. While the United States will continue significant funding 
for global health programs, other stakeholders and the partner 
countries must do more to contribute their fair share to global health 
initiatives. In the aftermath of the Ebola epidemic, for example, many 
partner countries have made renewed commitments to building resilient 
health systems. Countries are moving toward strengthening the 
management capacity needed to develop and sustain essential health 
institutions and programs.
    The FY 2018 budget will continue our efforts to strengthen country 
health systems, with the goal of graduating countries from U.S. 
assistance. We are committed to reaching that goal, as we become 
confident that sufficient health services of requisite quality can be 
provided by the countries.

    Question 23. My understanding is that the Department is State is 
looking to apply some FY 2017 funds to FY 2018 for Embassy Security, 
under the argument that there are excess funds available for Embassy 
construction and Embassy Security, with the administration's budget 
proposal asserting that the Accountability Review Board (ARB) is fully 
funded. It is my understanding, however, that the ARB can only be 
considered fully funded because of funds applied from prior years and 
that in fact $300 million in additional funding is required in FY 2018 
to meet the next set of ARB recommendations. $300 million might not be 
much in the context of a federal budget proposal that double counts $2 
trillion, but that represents a large amount of money for State. 
Assuring that there are no embassy security vulnerabilities or 
exposures is a critical priority for me. Can you walk us though how the 
Department arrived at its budget proposal for Embassy Security, and 
provide this committee your word that you will fully fund all the ARB 
recommendations?

    Answer. The FY 2018 Request provides $2.2 billion in total for the 
Capital Security Cost Sharing (CSCS) and Maintenance Cost Sharing (MCS) 
program, combining $337.7 million in new Embassy Security Construction 
& Maintenance (ESCM) funding, other agency contributions, consular fees 
retained by the State Department, and resources provided for ESCM in 
the FY 2017 Security Assistance Appropriations Act (SAAA). The FY 2018 
budget request includes language that would clarify that the 
Department's FY 2018 CSCS-MCS contribution would include ESCM 
appropriations provided under the SAAA. If ESCM appropriations provided 
under the SAAA are not utilized for the Department's FY 2018 CSCS-MCS 
contribution, the Department would need to identify other available 
funds to support the FY 2018 CSCS-MCS program at the $2.2 billion 
level.
    The FY 2018 Request provides $3.8 billion for Worldwide Security 
Protection, which fully funds the Bureau of Diplomatic Security and 
other related security programs.

Foreign Military Financing
    Question 24. The President's budget seeks to convert almost all 
Foreign Military Financing (FMF) to loans. What is State's current 
estimate of how many of FMF current recipient states will want to take 
on loan obligations to the United States for what was formally grants, 
and how many of them will actually qualify for loans?

    Answer. The administration submitted its Fiscal Year (FY) 2018 
budget request to Congress and has made clear that the budget reflects 
U.S. fiscal priorities and the need for our partners to share a greater 
portion of the financial burden with the United States for security 
around the globe. The request includes bilateral allocations for 
Israel, Egypt, Jordan, and Pakistan, and a request for $200 million in 
global Foreign Military Financing (FMF) that may be available for 
targeted bilateral allocations or to cover FMF loan subsidies. The 
administration believes that the partial transition from FMF grants to 
loans will allow us to both maintain key security partnerships and 
provide value for American industry and taxpayers.
    Not all countries may be appropriate loan partners for the United 
States due to their limited national budgets or other circumstances 
that could limit their ability to repay. The Department of State is in 
the process of conducting loan feasibility reviews on a country-by-
country basis; we are considering each country's importance to U.S. 
national security, national budget, expected ability to fulfill the 
terms of a loan agreement, and likelihood of interest.
    Pending Congressional support for the requested authority in FY 
2018, the Department will begin discussions with potential loan 
recipients and determine requirements and priorities for grants and 
potential loan subsidy costs.

FMF funding and U.S. Jobs
    Question 25. The Commerce Department has estimated that every $1 
Billion of exports supports about 6,000 U.S. jobs. The President's 
budget seeks to cut $1 Billion from the FMF account, and FMF funds have 
to be spent on U.S. defense contractors. Has State done an impact 
assessment of how many U.S. jobs could be lost by this cut?

    Answer. During the development of the President's budget request, 
the Department conducted analysis, in consultation with the Office of 
Management and Budget and other agencies, on how best to create savings 
for the taxpayer and advance America's core interests. The 
administration has requested the authority to provide up to $8 billion 
in FMF loans in FY 2018 as well as $4.8 billion in FMF funding. The 
administration feels that the flexibility provided by offering both FMF 
grants and loans is the most effective way to fulfill our security 
commitments in a cost effective manner.

Counterterrorism
    Question 26. I understand that the Global Engagement Center may be 
de-emphasizing establishing partnerships with other countries to 
develop extremism counter-messaging centers. Is this correct? If so, 
why?

    Answer. The Global Engagement Center (GEC) is not de-emphasizing 
its partnerships with other countries to develop counter-messaging 
centers. Our partnerships are ongoing, and our engagements with foreign 
partners have increased in scope and type over the past year. We value 
these partnerships and are appreciative of our work with foreign 
countries. The GEC currently works with messaging centers in the United 
Arab Emirates, the United Kingdom, Malaysia, Djibouti, and Jordan. The 
GEC has also supported the Center for Dialogue Peace and Understanding, 
a messaging center in Jeddah, Saudi Arabia that is hosted by the 
Organization for Islamic Cooperation.
    The GEC's ongoing partnerships with these centers take different 
forms depending on their needs, including financial support, and 
technical expertise. For example, working with U.S. Embassy Kuala 
Lumpur, the GEC provided funding and technical support to help the 
Government of Malaysia establish a Digital Strategic Communications 
Division. The GEC is planning to provide additional technical training 
for that division on the best ways to design data-driven, effective 
messaging campaigns. This fall, the GEC plans to send two staff members 
to the Center of Excellence for Preventing and Countering Violent 
Extremism in Djibouti. They will help support the establishment of a 
direct messaging operation, as well as help to determine staffing 
needs, audience analysis, and messaging themes.
    Counter messaging centers harness the creativity, expertise, and 
unique credibility of local actors to generate positive content that 
challenges the nihilistic vision of ISIS and other international 
terrorist organizations. As the entity charged with coordinating the 
U.S. government-wide counterterrorism communications, the GEC plans to 
maintain and capitalize upon these critical partnerships, and has no 
intention of de-emphasizing these partnerships.

    Question 27. As you know, the Russian compounds in New York and 
Maryland were seized based on the harassment of U.S. personnel in 
Russia. Since the seizure of these compounds, has the treatment of U.S. 
personnel in the Russian Federation markedly improved?

    Answer. We share your concerns over ongoing Russian harassment of 
personnel and family members at our U.S. Mission to Russia. We are 
troubled by the way our employees have been treated over the past three 
years. We have raised our concerns with the Russian government at the 
highest levels and will continue to raise them as long as the 
harassment persists. The safety and wellbeing of our personnel abroad, 
and their accompanying family members, are issues we take very 
seriously.

    Question 28. I understand that Tom Shannon met with his Russian 
counterpart on to discuss bilateral issues. I strongly urge the State 
Department not to return the compounds to Russia at this time. The 
harassment of our people continues. It is my understanding that Russia 
has done nothing to deserve the reward of access to these compounds. 
What is the State Department's current position on this issue?

    Answer. Under Secretary Thomas A. Shannon, Jr. met his Russian 
counterpart Sergei Ryabkov on July 17 to continue discussing areas of 
mutual concern. The conversation was tough, forthright, and deliberate. 
In response to your question, there was no resolution of the issue of 
Russian access to the compounds. Therefore, the current status of no 
access continues to hold.

Sanctions Legislation
    Question 29. Finally, the Russia sanctions bill which passed the 
Senate 98-2 included a provision that could make the return of the MD 
and NY compounds subject to congressional review. There is clearly very 
strong support in Congress for vigilance with regards to the Russian 
government presence in the United States. Does the State Department 
support these new sanctions and if not what course of action do you 
suggest we take to confront continued Russian aggression?

    Answer. This legislation reflects the bipartisan consensus of the 
U.S. Congress, and it includes tough measures to impose costs on, and 
to deter aggressive and destabilizing behavior by Russia and others. 
Our policy with respect to Ukraine has not changed. Russia must fully 
implement its Minsk commitments in order for sanctions related to 
Russia's aggressive actions in eastern Ukraine to be lifted. Russia 
must withdraw from Crimea and return control of the peninsula to the 
Ukrainian Government for our Crimea-related sanctions to be lifted. 
This legislation also makes it clear that we will not tolerate 
interference in our democratic process, and that we will side with our 
allies and friends against Russian subversion and destabilization.
    While the Act is a significant modification of existing U.S. 
sanctions on Russia, it remains in the U.S. interest to implement 
sanctions in unity with G-7 and other European partners to the greatest 
extent possible and we remain committed to coordinating closely with 
our allies. We will continue to work with our G-7, European allies, and 
other partners to maintain unity in Russia sanctions implementation.

    Question 30. Have any State Department funds been used for any 
purpose other than for providing personal security for the first 
family? If so, please provide a detailed accounting of any 
expenditures, even if later reimbursed, the beneficiaries of the 
services, and the purposes of and justification for any use of funds.

    Answer. The Bureau of Diplomatic Security does not provide personal 
security for the first family, which is the mission of the U.S. Secret 
Service. DS does support the U.S. Secret Service, as we would any other 
Federal law enforcement organization, when requested. This support is 
most likely to arise when the President, Vice President, and other 
designated protectees conduct foreign travel or when the Secretary of 
State is present at domestic or foreign locations where the Secret 
Service is performing duties.

Spending at Trump-Branded Properties
    Question 31. Has the State Department ever paid above the U.S. 
Government per diem rate for a hotel room at a Trump-branded property 
(regardless of whether the Trump Organization owns or manages the 
property)? If so, please provide the daily amount paid, the amount 
above the per diem rate, the number of rooms paid above the per diem 
rate, the property in question, and the justification for paying above 
the per diem rate.

    Answer. We do not track the providers of goods and services to the 
State Department based on corporate or individual owner association. 
The Department rents property and purchases goods and services globally 
in the performance of its mission and all such transactions are 
required to be conducted under existing travel and acquisition 
regulations, including limits on expenditures and the rules for 
sourcing all such items.

Policy for Trump-Branded Properties
    Question 32. Does the State Department have a policy, written or 
unwritten, regarding spending State Department funds on Trump-branded 
properties?

    Answer. As stated, Federal regulations requires that the purchase 
of goods and services globally, in the performance of the Department's 
mission, be conducted under existing travel and acquisition 
regulations, including limits on expenditures and the rules for 
sourcing all such items, including ``Trump-branded properties.''



                               __________


     Responses to Additional Questions for the Record Submitted to 
              John J. Sullivan by Senator Robert Menendez

    Question 1. What are you doing to ensure Bureaus are adequately 
staffed to respond to pressing foreign policy challenges as well as 
operational functions of the bureau?

    Answer. We have a deep bench of experienced career professionals 
serving in key positions that are highly capable and able to help the 
Secretary lead the Department and advance U.S. interests worldwide. The 
Department is organized into bureaus with regional or functional 
responsibilities--each headed by an Assistant Secretary or equivalent 
and each Assistant Secretary has a Deputy who is prepared to assume 
his/her responsibilities on short notice for any length of time 
necessary.

    Question 2. What drove the decision to limit lateral movements?

    Answer. The suspension of Civil Service transfers and lateral 
movement is temporary while we assess the current and future state of 
the Department's organization structure and its staffing needs. As we 
complete the work of the redesign effort and evaluate the staffing 
needs of the Department, both overseas and domestic, we will align all 
of our staffing programs to strategically recruit, retain, and develop 
the workforce of the future.

    Question 3. Are you concerned this will inhibit professional growth 
opportunities for civil servants, which may ultimately undermine the 
overall caliber of the workforce of the department?

    Answer. The temporary freeze on filling positions through hiring 
and reassignments will not inhibit professional growth opportunities or 
undermine the caliber of the Department's workforce. As part of the 
redesign efforts we have taken a holistic approach to the various 
career development programs offered in the Department. The professional 
development of all our employees remains a high priority. This is 
supported in various ways through trainings offered by the Foreign 
Service Institute, access to numerous leadership development programs, 
to our Senior Career Development Counselors, and opportunities to 
engage through mentoring and coaching.
    The Department believes in maximizing access to career and 
professional development opportunities for all its employees. We are 
committed to invest in these opportunities for professional growth 
among our Civil Service workforce. We will continue to encourage all 
employees to access the services offered by the Department's Career 
Development Resource Center as a vital resource for the professional 
growth of employees at all levels of the organization.
    State Department employees make a difference as they contribute to 
a global society and the best interests of our country. We will 
continue to engage our employees to take advantage of the various 
programs offered to our Civil Service workforce such as the Excellence 
in Government, Aspiring and New Leader Programs, just to name a few.

    Question 4. How do you think this limitation on career growth 
opportunities will affect morale?

    Answer. The temporary freeze on hiring and filling vacancies 
through reassignments will not limit employee career growth, but we are 
very sensitive to the fact that any type of freeze or limitation--
whether brief or long term, will likely impact morale. By design the 
Department reform efforts are employee led and we continue hold town 
halls and conduct other direct communcations with Department employees 
on why we are taking these prudent temporary measures so that the 
redesign process to move quickly and efficiently. Logically, in order 
to get a clear picture of the Department's structure and processes it 
is necessary, for the time being, to limit movements of employees. Once 
our analysis is complete and we have a plan for restructuring the 
Department, it will be possible to reconsider the freeze and other 
limitations to permit employee movement in alignment with the 
Department's redesign plans.

    Question 5. Retired foreign services officers often continue to 
play a critical role in the day-to-day functions of the State 
Department, bringing welcome experience and service. Why have you 
decided to stop the ``WAE'' practice of bringing back retired Foreign 
Service Offices to backfill critical positions within the department 
that may be unstaffed for short periods of time between postings?

    Answer. We anticipate that the Department's ongoing restructuring 
and streamling review will identify certain positions for elimination 
or consolidation. Pending the final results of this review, we have 
suspended new WAE hiring until final bureau/office structure and 
staffing plans are approved and in place.

    Question 6. How are you determining which positions do not 
seemingly need to be filled? What will happen if there is a crisis that 
requires extra personnel, particularly those with relevant experience 
that could help improve American national security interests?

    Answer. The State Department values the dedication, 
professionalism, and skills sets of all of our employees. The hiring 
freeze is a temporary measure that allows the Department to assess the 
current and future state of the Department's organization structure and 
its staffing needs. We are consulting extensively with our bureau 
colleagues to assess their priority staffing needs, in conjunction with 
HR assignment elements and staffing model recommendations. Current 
Foreign Service intake planning has been developed keeping in mind 
preservation of Foreign Service flow-through in our most critical 
Generalist and Specialist skill categories, so that new hires will be 
available to assume duties at various overseas posts. For the Civil 
Service, we will focus our hiring efforts on those mission critical 
occupations (MCOs) that provide important policy development and 
program support either directly here in Washington or in concert with 
our colleagues serving overseas.
    We remain flexible. We have granted several exemptions in order to 
support our safety, security, and health and we continue to entertain 
requests for exemptions from throughout the Department on a case-by-
case basis.

    Question 7. The Department has reportedly stopped the practice of 
hiring eligible family members EFMs at overseas posts. Why?

    Answer. We recognize the vital role that EFMs play at virtually 
every overseas post. Since we implemented the hiring freeze in January, 
we have approved exemptions to fill 807 EFM positions globally. Our 
Department redesign effort goes beyond looking at our operations here 
in Washington and includes examining what roles and missions we should 
be performing overseas. Continuation of the hiring freeze remains a 
temporary necessity pending outcomes of the redesign. EFMs are part of 
the fabric of our posts abroad and will continue to be in the future.

    Question 8. Our Foreign Service Officers have chosen to serve their 
country in a capacity that his significant consequences for their 
families. Family members often bring language, technical or other 
skills that benefit the United States' interests. Additionally, family 
members may not be able to work in a foreign country for a variety of 
reasons including visa restrictions or security considerations. Why 
would the Department not seek to facilitate employment opportunities 
for those eligible family members and support our Foreign Service 
Officers who may need dual incomes?

    Answer. The current agency redesign phase is considering how best 
to leverage the experience of EFMs for work in our overseas missions. 
In addition, the Department continues to seek new bilateral work 
agreements to enable family members seeking employment outside the 
mission to obtain work permits. The Bureau of Human Resources' Family 
Liaison Office helps family members advance the portability of their 
skills and interests during the course of the spouse's Foreign Service 
career.

    Question 9. Who do you envision taking these often critical 
positions?

    Answer. The Secretary has authorized 807 exemptions so that family 
members can be hired to fill the most critical positions? impacting 
security, safety, and health at our posts overseas.

    Question 10. Who serves as Chief of Staff for the Deputy Secretary 
of State? Is this position filled?

    Answer. The Deputy Secretary of State's Executive Assistant is 
Gregory LoGerfo, whose role includes chief of staff over the Deputy's 
team of Special Assistants.

    Question 11. Does the administration plan to merge the Deputy 
Secretary Position with the Under Secretary for Management?

    Answer. On June 15, President Trump nominated Eric Ueland to serve 
as Under Secretary of State for Management. Deputy Secretary Sullivan 
was confirmed as Deputy Secretary on May 24, 2017. Any other 
realignments are pending the outcome of the Department's redesign 
efforts.

    Question 12. I have been troubled by recent reports that the 
administration is considering eliminating the Bureau of Population, 
Refugees, and Migration and shifting its responsibilities to DHS. This 
bureau at State has had strong bipartisan support over many years. Is 
the Department considering this move? How would this account for the 
important role that PRM plays in ensuring that resettlement leverages 
U.S. foreign policy interests? Do you have any indication of the cost 
of such a massive reorganization of jurisdiction? How would you foresee 
DHS, given its lack of foreign policy expertise and capacity, analyzing 
displacement contexts to leverage resettlement to advance U.S. 
diplomatic goals such as local integration of refugees in host 
countries and improving conditions in camps and urban settings?

    Answer. The outcome of the organizational review has not been 
predetermined. As the Secretary has noted, the function of the Bureau 
of Population, Refugees, and Migration (PRM) is vitally important to 
our mission at the Department of State; humanitarian work is essential 
to the Department's efforts to secure our borders and protect the 
American people.
    Responding to refugee and forced displacement crises is 
fundamentally diplomatic in nature and has always required a 
combination of meeting immediate needs while seeking longer-term 
solutions that will support refugees in the countries to which they've 
fled, get refugees home safely when they want to do so, and provide 
resettlement to those who cannot return home. PRM is a critical 
component of the State Department's efforts to achieve these 
objectives, amidst the world's more urgent humanitarian crises and 
conflicts. Achieving long-term solutions requires the expertise of many 
in the inter-agency and the State Department. PRM leads this 
coordinated effort to ensure all of our diplomatic, assistance, and 
national security tools are efficiently employed to address the needs 
of refugees and forcibly displaced people to find solutions to their 
displacement.

    Question 13. Many unaccompanied Central American children--boys and 
girls alike--have been forced to flee their homes by threats of 
violence or death. Besides dangers at home, they face dangerous 
journeys with risks from human traffickers and others. The DOS/PRM's 
Central American Minor program (CAM) was created to help them access 
protection without having to take the dangerous journey, through 
refugee or humanitarian parole status. Do you affirm the importance of 
this program and can you commit that this program will continue? How 
would you see the administration continuing to operate this lifesaving 
program to continue saving the lives of these children?

    Answer. The U.S. Refugee Admissions Program (USRAP) is continuing 
to accept applications and process children and eligible family members 
for eventual refugee resettlement to the United States under the 
Central American Minors (CAM) program.
    The CAM program has facilitated the entry of over 3,030 children 
and eligible family members to the United States since its inception in 
December 2014. As of July 17, 1,554 refugees have been resettled in the 
United States and 1,465 individuals have been paroled into the United 
States. We have also received close to 13,000 applications.
    The CAM program was expanded in November 2016 to allow other 
eligible family members to request admission or parole into the United 
States when accompanied by an unmarried, qualifying child under the age 
of 21. These include siblings, a biological parent, and a caregiver.
    The Department of State, in consultation with the Departments of 
Homeland Security and Health and Human Services, is currently drafting 
the annual Report to Congress on Proposed Refugee Admissions, which 
will outline the populations of special humanitarian concern that will 
be processed in FY 2018.
    For any questions specific to the parole component of the CAM 
program, please contact the Department of Homeland Security.

    Question 14. Recent reports indicate the Department is considering 
closing the Office of the Coordinator for Cyber Issues? Can you confirm 
or deny these reports? Given the growing use of cyberwarfare, including 
the Russian attack against the United States in the last Presidential 
election, what drove the decision to close an office dedicated to this 
issue? What impact will this have on our ability to effectively address 
cyber threats?

    Answer. The Department is currently evaluating the utility of the 
nearly 70 Special Representatives or Special Envoys that exist within 
the structure of the U.S. Department of State. As part of this review, 
the Department is evaluating the best way to organize to continue 
advancing American cyber policy interests around the world. While the 
stand-alone position of Coordinator for Cyber Issues will be 
discontinued, the office will not close and its critical work will go 
on. Ongoing reform efforts will seek to further integrate cyber policy 
work with related issues in functional and regional bureaus and ensure 
that cyber challenges get the attention and resources they require. 
These reforms will ultimately improve the ability of the U.S. 
Government to effectively address cyber threats and realize the 
positive vision of an open, interoperable, secure, and reliable 
internet.



                               __________


     Responses to Additional Questions for the Record Submitted to 
            John J. Sullivan by Senator Christopher A. Coons

    Question 1. In light of the ongoing hiring freeze, how is the 
Department working to ensure that Eligible Family Members posted 
overseas have access to gainful employment?

    Answer. Nearly 800 hiring exemptions have been approved for EFM 
positions that support critical security, safety and health 
responsibilities at overseas posts. In addition to these employment 
opportunities, the Department continues to seek new bilateral work 
agreements to enable family members seeking employment outside the 
mission to obtain work permits. The Bureau of Human Resources' Family 
Liaison Office also provides programs to help family members advance 
the portability of their professional skills and interests during the 
course of the spouse's Foreign Service career.

    Question 2. Does the Department plan to include Foreign Service 
Specialists in the July or September A-100 classes?

    Answer. Forty A-100 colleagues joined the Department in July. In 
September, classes for 60 Foreign Service Specialists and an additional 
31 Generalists will be held.

    Question 3. What is the anticipated timeline for ending the hiring 
freeze?

    Answer. The President's government-wide hiring freeze was in place 
from January 23 through April 12 of this year. At the end of the 
freeze, the Secretary chose to continue it for the Department of State, 
with exemptions on a case-by-case basis, pending a comprehensive review 
and redesign effort for the Department.
    We have granted hundreds of exemptions in order to support our 
safety, security, and health, and the Secretary and I continue to 
receive and review requests for exemptions from throughout the 
Department.
    As part of these efforts, we aim to make the Department of State 
lean, accountable, and more efficient. Continuation of the hiring 
freeze remains a temporary necessity pending the outcome of the 
redesign.

    Question 4. Can you commit to us that the Department will continue 
the Rangel and Pickering Fellowships and ensure that Fellows are 
inducted into the Foreign Service?

    Answer. The Department is committed to the Pickering and Rangel 
programs as our premier diversity recruitment programs, which were 
established in order to increase the diversity of the Foreign Service. 
The Department has offered eligible Fellows spots in the July and 
September 2017 A-100 entry level Foreign Service Officer classes. We 
value these talented individuals and the skills they have brought and 
will continue to bring to the Department.

    Question 5. I understand that one proposal under consideration as 
part of the administration's efficiency review process is to move the 
State Department's Consular Affairs and Population, Refugees, and 
Migration Bureaus to the Department of Homeland Security. What is the 
status of this proposal? Do you believe it is important for these 
functions to remain under the State Department?

    Answer. There is no preconceived notion about the outcome of the 
organizational review. This proposal remains one of many proposals 
under consideration. We do not support moving these programs out of the 
State Department. The functions of the Bureau of Consular Affairs (CA) 
and the Bureau of Population, Refugees, and Migration (PRM) are vital 
to the Department's mission to secure our borders and protect the 
American people.
    Decisions on passport and visa operations can have profound 
implications for foreign and economic policy in addition to security. 
The Department's cadre of local language trained Foreign Service 
Officers, Consular Fellows, Civil Servants, and Local Employees bring 
skills in dealing with foreign governments, along with broad knowledge 
of regional and local cultures to visa and passport decisions.
    Responding to refugee crises requires a combination of efforts to 
meet refugees' immediate needs, support countries to which refugees 
have fled, use diplomacy to seek political solutions that will allow 
refugees to return home, and provide resettlement to those who cannot 
return home or survive in the location to which they have fled. PRM is 
a critical component of an efficient system at State that contains the 
full range of responses to refugee crises: diplomatic, resources, and 
resettlement. Humanitarian crises are the results of political crises, 
often in areas of national security interest to the U.S. (e.g., Syria, 
Iraq, Ukraine, and South Sudan), and require political solutions. State 
is best situated to coordinate our diplomatic, assistance, and national 
security efforts to achieve these solutions.

    Question 6. A number of Delaware businesses that rely on the Summer 
Work Travel program to meet their seasonal employment needs have 
reached out to my office expressing concern that the J-1 visa program 
is in danger. Can you discuss the status of any proposals to eliminate 
or change the J-1 visa program?

    Answer. The Department does not have any plans to eliminate the J-1 
visa program or reduce the current levels of participation in any 
category.
    In calendar year 2016, almost 110,000 exchange visitors from nearly 
150 countries took part in the SWT program, as did around 26,000 host 
employers throughout the United States. Approximately 1,660 SWT 
participants were placed in Delaware that year. Over 700 were located 
in or near Rehoboth, and nearly 800, at the other beach locales, mostly 
in small, locally owned businesses (e.g., restaurants, pools, and 
shops).



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 John J. Sullivan by Senator Tom Udall

    Question 1. On March 8, I wrote to Secretary Tillerson, along with 
Senators Whitehouse and Blumenthal, asking what if any taxpayer 
resources are being spent to secure Trump organization commercial real 
estate around the globe.

   Will the State Department respond to this letter soon? It has 
        already been 4 months.
   Has anyone in the Trump organization or Trump administration 
        requested assistance from State to help secure a Trump 
        organization property?
   Has the Department of State rented property or purchased additional 
        goods and or services from the Trump organization to facilitate 
        State department missions? If so, is there an agreement in 
        place for the Trump organization to reimburse the federal 
        government for those costs?
   Properties around the world are prominently branded with the Trump 
        name, including in Istanbul, Dubai, Mumbai, Panama City, and 
        the Philippines. Several buildings in New York City, as well as 
        a hotel blocks from the White House, all display the 
        President's name. Has the Department of State undertaken any 
        assessment of the risks of attack to the Trump organizations 
        privately owned or leased properties? If so, what is the 
        justification for the federal government to assess the risks of 
        privately owned properties?
   What properties owned by or in a lease agreement with the Trump 
        Organization are currently receiving protection and what is the 
        cost of the protection? Is there any agreement in place for the 
        Trump organization to reimburse the federal government for 
        those costs?
   Media reports state that the logistical demands of protecting all 
        of the members of President Trump's family are straining 
        resources of the State Department and other agencies. Does the 
        State Department have sufficient resources to fulfill their 
        missions related to protecting the President and his family and 
        providing him with logistical support when he travels? If not, 
        what are the plans to address the shortfalls? Do any of your 
        agencies anticipate requesting a supplemental appropriation to 
        fund your missions related to protection services for the First 
        Family or any Trump Organization property or providing 
        logistical support when he stays at his properties?
   Many of the properties owned by the Trump Organization have a 
        private residence for the First Family within a for-profit 
        business, such as Trump Tower in New York and Mar-a-Lago in 
        Florida. In order to protect the First Family at these 
        locations and to provide the President with necessary 
        logistical support for things like secure communications, does 
        the State Department currently, or does State plan to, rent 
        property or purchase goods or services from the Trump 
        Organization to facilitate their missions? What are the costs 
        of these property rentals, goods, and services? Please include 
        any long term leases, as well as room rentals at Trump 
        Organization hotels and clubs. Is there any agreement in place 
        for the Trump Organization to reimburse the federal government 
        for those costs?

    Answer. The Department of State, through its Bureau of Diplomatic 
Security, does not generally conduct threat assessments related to any 
facilities not owned or operated by the Department, or as to personnel 
not employed by the Department. If certain senior Department officials 
are to be present in non-State facilities abroad, in connection with 
their presence, Diplomatic Security may consider, as part of their 
protective duties, the general threat levels to those non-State 
facilities on an episodic and transient basis.
    The Secretary of State is authorized by law to provide security for 
United States Government missions abroad and for Department of State 
facilities in the United States. No such missions or facilities are 
located in Trump Organization properties.
    The Bureau of Diplomatic Security, through the Overseas Security 
Advisory Council (OSAC), provides security guidance to and facilitates 
security information-sharing with U.S. private-sector organizations 
operating in other countries. All U.S. private-sector organizations are 
treated equally, and all OSAC services are available to its 
constituents. OSAC has not provided any security guidance to the Trump 
Organization or Trump Organization properties.
    The Department has not received a request from the Trump 
Organization or the Trump administration to secure a Trump Organization 
property, domestically or overseas. The Bureau of Diplomatic Security 
does support the U.S. Secret Service, as we would any other Federal law 
enforcement organization, when requested. This support is most likely 
to arise when the President and Vice President conduct foreign travel 
or when the Secretary of State is present at domestic or foreign 
locations where the Secret Service is performing duties. There are no 
resource concerns with respect to providing such support.
    While the Department rents property and purchases goods and 
services globally in the performance of its mission, all such 
transactions are conducted under existing travel and acquisition 
regulations, including limits on expenditures and the rules for 
sourcing all such items. For White House trips (domestic and overseas) 
supported by the Department's Presidential Travel Support Office, we 
work closely with other U.S. government agencies, U.S. embassies, and 
Bureau experts to minimize costs and adhere to applicable regulations. 
Subject to those regulations and in the course of carrying out the 
functions of the Department, the Department has had and may in the 
future have transactions with hotels or restaurants utilizing the Trump 
brand and logo.

    Question 2. The House National Defense Authorization Act just 
passed last week. During the floor debate, the House voted 234 to 185 
to defeat an amendment that sought to block DOD climate change studies. 
That is a large bipartisan majority, in a Republican controlled body. 
Unfortunately, President Trump--reportedly against the recommendations 
of Secretary Tillerson--has started the process to withdraw the U.S. 
from the Paris Agreement. That process takes a number of years. Can you 
tell us if the State Department will still be participating in the 
Paris Agreement during the multi-year withdrawal process, and if so, 
how?

    Answer. The President has made clear that he is open to the 
possibility of re-engaging in the Paris Agreement under terms that are 
fair to the United States and its workers. However, we must do so in a 
way that does not undermine the competitiveness of U.S. businesses, or 
hamper our broader objective of advancing U.S. economic growth and 
prosperity. While the administration considers those terms, and given 
that the United States remains a Party to the Paris Agreement and the 
U.N. Framework Convention on Climate Change, the State Department will 
continue to participate in discussions related to the Paris Agreement 
to protect U.S. interests and preserve all future policy options.

    Question 3. President Trump announced some unfortunate reversals of 
our nation's policy toward Cuba. However, some of the progress from the 
last two years remains in place. Does the administration plan any 
further policy changes toward Cuba in the near term? What actions is 
the State Department taking now with regards to Cuba? Any proposals, 
any meetings, anything?

    Answer. The President signed a National Security Presidential 
Memorandum June 16, ``Strengthening the Policy of the United States 
Toward Cuba,'' which establishes the principles that will guide our 
Cuba policy. The new policy gives greater emphasis to advancing human 
rights and democracy in Cuba, while maintaining bilateral engagement 
that serves U.S. national interests. The policy also ensures compliance 
with the statutory ban on tourism to Cuba and seeks to ensure that our 
engagement benefits the Cuban people rather than the Cuban military, 
intelligence, or security agencies or personnel. The Departments of 
Commerce and the Treasury, in coordination with the Department of 
State, have begun work on the regulations that will implement the 
policy. How the U.S.-Cuba relationship evolves will depend on the Cuban 
government's willingness to improve the lives of the Cuban people, 
including through holding elections, promoting the rule of law, 
respecting human rights, and taking concrete steps to foster political 
and economic freedoms.
    We plan to reconvene the Bilateral Commission in September to 
discuss and prioritize our engagement with Cuba going forward. We are 
also arranging the next round of Migration Talks and the Law 
Enforcement Dialogue, and we have proposed continuing our Human Rights 
Dialogue with the Cuban government. Other areas of bilateral engagement 
include:

  <diamond> Encouraging the growth of a Cuban private sector 
        independent of government control;
  <diamond> Protecting our national security, public health, and 
        safety, including engagement on criminal cases and working to 
        ensure the return of U.S. fugitives from American justice 
        living in Cuba or being harbored by the Cuban government;
  <diamond> Enforcing final orders of removal against Cuban nationals 
        in the United States;
  <diamond> Supporting U.S. agriculture and protecting plant and animal 
        health;
  <diamond> Advancing the understanding of the United States regarding 
        scientific and environmental challenges; and
  <diamond> Facilitating safe civil aviation.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                 John J. Sullivan by Senator Tim Kaine

    Question 1. I am concerned that the State Department imposed hiring 
freeze is negatively affecting Foreign Service families, particularly 
those deploying to our highest threat posts overseas. My Virginia 
constituents have been particularly alarmed that otherwise well 
qualified family members who were offered positions at Embassies 
overseas are now being told those positions are no longer available, 
threatening family separation and additional hardship to our FSOs on 
the front lines. What are you doing to address EFM hiring during the 
freeze and do you anticipate that these positions will be restored 
after you complete your review?

    Answer. The President's government-wide hiring freeze was in place 
from January 23 through April 12 of this year. At the end of the 
freeze, the Secretary chose to continue it for the Department of State, 
with exemptions on a case-by-case basis, pending the completion of a 
comprehensive review of the efficiency and effectiveness of the 
Department, which is currently ongoing.
    Over 800 hiring exemptions have been approved for Eligible Family 
Member (EFM) positions that support critical security, safety and 
health responsibilities at overseas posts. In addition to these 
exemptions, 19 eligible family members accepted limited non-career 
appointments as Consular Fellows. The Bureau of Human Resources' Family 
Liaison Office also provides programs to help family members advance 
the portability of their professional skills and interests during the 
course of the spouse's Foreign Service career.

Department Re-Organization
    Question 2. I appreciate your testimony that the Department is 
seeking to incorporate career officials' views in the re-organization 
process and not predetermining any outcomes. I am concerned, however, 
that before Congress has seen any information on the re-org, the 
Department has already: 1) implemented a hiring freeze; 2) dissolved 
the offices of the Special Envoys for Af/Pak, Iran Nuclear 
Implementation, War Crimes, Climate Change, and others; and 3) let go 
dozens of senior career foreign service officers by removing them from 
their positions. Without a comprehensive strategy, we are already 
witnessing seismic changes in the Department, some irreversible 
particularly in the case of retaining personnel. How do you reconcile 
your determinative process to redesign the State Department and keep 
Congress apprised while we continue to observe significant changes 
daily?

    Answer. Executive Order 13781 of March 13, 2017, calls for each 
agency to submit a plan, due in September, to improve the efficiency, 
effectiveness, and accountability of that agency. We are looking at 
aligning resources, people, and our overarching mission, including 
restructuring State and USAID's operations, in order to deploy the 
talent and resources of State and USAID in the most efficient way 
possible. To guide how we approach both our work process design as well 
as our organizational structure, the Department is taking a 
comprehensive look at how we actually deliver on mission.
    To allow the Department to consider an accurate snapshot of our 
organization, the Secretary decided to maintain the hiring freeze, 
which was originally implemented by OMB and OPM, pending the outcome of 
our organizational efficiency review. We are currently evaluating the 
various special offices within the Department, to make sure that the 
responsibility for each issue is appropriately placed and aligned with 
the resources needed to achieve our mission, while continuing to meet 
our mandate on foreign policy goals.
    Senior Foreign Service Officers in the Department are subject to 
natural rotations, assignments, and appointment processes and it is 
very common to move from job to job or reach mandatory retirement dates 
due to the up or out system. We continue to have a deep bench of 
experienced career professionals serving in key positions that are 
highly capable and able to help the Secretary lead the Department and 
advance U.S. interests worldwide.
    Our review has no preconceived outcomes. We will submit to OMB in 
September a final Agency Reform Plan with recommendations, blueprints, 
and new vision for the organizational chart. We will keep the committee 
and others in Congress informed throughout that process. Following 
discussions with OMB about which reforms to act upon, we will consult 
with the committee and with Congress more deeply before taking any 
action.

    Question 3. Afghanistan and Pakistan represent two of our most 
vexing foreign policy questions. President Trump has called for a 
build-up of U.S. troops in Afghanistan and delegated authority to DOD 
for the war in Afghanistan the same week it dissolved the State 
Department's Special Envoy office for Afghanistan and Pakistan. What 
steps is the State Department planning to complement that military 
buildup? What is your strategy to end the conflict through a political 
solution? Will the military strategy be subordinate to political 
objectives? Who is leading these diplomatic efforts for the State 
Department?

    Answer. The State Department is participating in a rigorous 
interagency policy review coordinated by the National Security Council 
that, once completed, will produce an integrated approach to protecting 
our vital national interests in Afghanistan, Pakistan, and the region. 
As part of this review, the President has tasked his national security 
team to develop options that are realistic, sustainable, and cost 
effective. It is not a foregone conclusion that our strategy will 
require a military buildup. The diplomatic and military components of 
the strategy will complement each other in achieving our core political 
objectives, which include preventing Afghanistan and the Afghanistan-
Pakistan border region from again becoming a safe haven from which 
terrorists can attack the homeland or U.S. interests abroad.
    A negotiated peace accord with the Taliban is critical to ending 
the conflict and ensuring the long-term preservation of our national 
security interests. We have signaled to the Afghan government and our 
NATO allies the priority we attach to launching a peace process, and we 
regularly request Afghanistan's neighbors to press the Taliban to come 
to the negotiating table. The broad outlines of an acceptable agreement 
to end the conflict would require the Taliban to cease violence, break 
all ties to international terrorists, and accept the Afghan 
Constitution, including its protections for women and minorities. These 
end-conditions are necessary to ensure the gains achieved over the last 
16 years are protected.
    Diplomatic efforts with Afghanistan and Pakistan receive senior 
attention, including by the Secretary of State, Deputy Secretary, and 
Under Secretary for Political Affairs. Additionally, Acting Assistant 
Secretary for the Bureau of South and Central Asia Alice Wells serves 
as the Acting Special Representative for Afghanistan and Pakistan 
(SRAP). As Acting SRAP, Ambassador Wells leads day-to-day engagement on 
these issues along with our chiefs of mission in Islamabad and Kabul. 
Ambassador Wells contributes to the development and implementation of 
U.S. policy in the region, and coordinates international community 
efforts to seek an end to the conflict in Afghanistan and to enhance 
regional cooperation and stability.

    Question 4. What are the Department's plans for bolstering 
democratic institutions in Europe to defend against Russian aggression? 
How are you working with Secretary Mattis to support European 
resilience in political-military, cybersecurity, and other critical 
spheres?

    Answer. Russia continues to violate the sovereignty and territorial 
integrity of Georgia and Ukraine, as well as to conduct malign 
influence activities intended to weaken democratic institutions and 
transatlantic unity. The United States is focused on building 
resilience in our partners and Allies in Europe by reducing 
vulnerabilities, strengthening democratic institutions, reducing 
corruption, building partner defense capabilities, bolstering 
cybersecurity capabilities, and diversifying energy supplies. In 
Georgia and Ukraine, our assistance is encouraging reforms, eliminating 
fraud and abuse, and reorienting economies away from Russian dependence 
in order to lessen vulnerability to economic pressure. We also are 
coordinating internally, including with EUCOM, to strengthen 
cybersecurity defenses in the region.
    The European Reassurance Initiative (ERI), for which $4.8 billion 
is requested for FY 2018, provides funding to increase U.S. presence 
across Europe, expand U.S. participation in exercises and training 
activities with NATO Allies and partners, enhance prepositioning of 
U.S. military equipment in Europe, improve infrastructure at military 
installations, and provide assistance to build the capacity of our 
allies and partners to defend themselves and enable their full 
participation as operational partners in responding to crises.

    Question 5. Congress is likely to provide more funding than 
requested by the President in the ``skinny budget'' for the Department 
for FY 2018 given the importance it places on State and USAID. Will you 
respect Congress's role in the budget process and commit to implement 
the funds appropriated to you by Congress? Does the State Department 
plan to unilaterally implement significant budget cuts by refusing to 
spend the money appropriated?

    Answer. The Department of State and USAID will obligate funds 
appropriated by Congress consistent with applicable law and 
notification requirements.

    Question 6. Last year, I proposed an amendment, which passed in the 
NDAA, to give combatant commanders the flexibility to support State and 
USAID CVE programs, which would in turn help DoD's mission. I am 
concerned that more than halfway through FY 2017, we have not been 
informed of any proposals to use this authority. Congress views this 
authority as vital to our national security objectives and we provided 
this authority at the direct request of the combatant commanders. Can 
you provide an update on your discussions with DoD to use this funding 
authority? How many proposals have been sent to State or USAID from 
DoD? Has OMB informed you of any intention to prohibit State from 
receiving these funds from DoD? Has DoD provided State with policy 
guidance to use this authority in a timely manner?

    Answer. The Department of State and DoD collaborate closely to 
ensure that we leverage both Departments' tools and resources, include 
DoD authorities, and advance U.S. foreign policy and national security 
objectives. This collaboration permits the integration of assistance 
programming across economic, security, civilian, and military spheres. 
Collaboration ensures that all of our programs advance a unified 
foreign policy strategy. To date, the Department of State has not 
received any proposals from DoD regarding the planned use of its 
Section 385 authority. The FY 2017 NDAA also includes the Section 1287 
authority which enables the Secretary of Defense to transfer funds to 
the Secretary of State to support the functions of the Global 
Engagement Center (GEC). The GEC is working closely with senior 
leadership at the Department of State to advance this effort. We are 
ready to work with our DoD colleagues on both of these authorities, as 
we currently do on other authorities, in an effort to synchronize 
security assistance planning and programming across the two 
Departments.

     Responses to Additional Questions for the Record Submitted to 
                John J. Sullivan by Senator Jeff Merkley

    Question 1. During your July 17 appearance you reiterated two 
points that Secretary Tillerson made during his June 13 appearance 
before this committee--that the administration has ``no preconceived 
notions'' on the shape of a reorganization, and that the internal 
redesign of State Department operations remains months away from 
completion. On June 13, Secretary Tillerson also mentioned that he is 
planning a four percent reduction to the Foreign Service and a 12 
percent reduction to the civil service work force. How did Secretary 
Tillerson arrive at these specific figures prior to completing your 
strategic review of the Department's operations?

    Answer. The Department developed a workforce reduction plan 
consistent with OMB guidance. Foreign and Civil Service intake planning 
are based on less than full attrition replacement. In both cases, we 
believe this measured approach to hiring reflects a careful balance of 
workforce continuity and stability within the overarching context of 
the Department's ongoing redesign. For the Foreign Service, current 
intake planning figures were developed to preserve Foreign Service 
flow-through in our most critical Generalist and Specialist skill 
categories and ensure that newly hired personnel will be available for 
critical overseas postings. Civil Service intake focuses hiring on 
those mission critical occupations that provide important policy 
development and program support here in Washington and in concert with 
our colleagues serving overseas. Specific reduction levels among 
Foreign and Civil Service may be subject to adjustments as the redesign 
effort is completed.

    Question 2, Is predetermining staff cuts consistent with a mission-
driven--as opposed to budget-driven--review and possible reorganization 
of the Department? Why or why not?

    Answer. In the Secretary's and my view, the limited hiring plans 
that have been developed are neither exclusively budget nor mission 
driven. Rather, we believe that our mission, program, staffing, and 
funding components are closely linked. As such, our measured workforce 
reduction plan reflects this interrelationship in the President's and 
the Secretary's near term vision of how U.S. foreign policy mission and 
program priorities will be established and executed, with the funding 
and staffing resources aligned to meet those priorities.
    As the Secretary noted in his June testimony, one of the primary 
goals of the Department's efficiency review is to take a hard look at 
common or overlapping missions shared by various bureaus and other USG 
agencies. While the Department has no preconceived notions in this 
regard, this review will consider whether functions and/or programs 
within the Department are duplicative or very similar in nature. 
Implicit in any effort to reduce or consolidate functions or processes 
is a reduced workforce level to carry them out.

    Question 3. The State Department performs essential work on behalf 
of the American people. I am concerned that any reorganization that 
does not enjoy bipartisan support in Congress risks undermining our 
diplomatic capacity. I am also concerned that a reorganization that 
does not enjoy bipartisan support could subject our Foreign Service 
Officers and civil service professionals to partisan debate. Mr. 
Sullivan, will you pledge to preview any proposed reorganization of the 
State Department with all of this committee's members, to solicit 
feedback, and to only proceed with a plan that our Chairman Senator 
Corker and Ranking Member Senator Cardin--collectively representing the 
views of the committee's broader membership--can support?

    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We have 
been in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and notify and report on planned organizational changes 
consistent with sections 7015 and 7034(l) of the Department of State, 
Foreign Operations, and Related Programs Appropriations Act, 2017 
(Division J, P.L. 115-31). As the review is still underway, it is 
possible some of the planned organizational changes might also require 
statutory changes. We will work with Congress as part of or prior to 
the FY 2019 budget submission to pursue such statutory changes. At the 
end of this process, our goal is to ensure the State Department and 
USAID is better equipped to address the foreign policy challenges of 
the United States.

    Question 4. According to the administration's ``comprehensive 
Government-wide Reform Plan,'' interim agency reports were due to the 
Office of Management and Budget on June 30. In your testimony, however, 
you only noted that the Secretary has charged you with leading ``Phase 
II'' of the redesign efforts. Did the State Department issue an interim 
agency report to the Office of Management and Budget by the June 30 
deadline? If so, what specific recommendations did you include in the 
interim agency report you submitted to Office of Management and Budget? 
If so, will you make your interim agency report available to this 
committee?

    Answer. The Department submitted to OMB its initial draft of the 
agency reform plan. It is a high-level draft, intended to initiate a 
conversation and does not yet recommend specific changes or actions. It 
includes information about our current workforce and progress on our 
Transformation efforts so far. State and USAID submitted coordinated 
reports. We will continue to keep you and your staff apprised of the 
redesign process.

    Question 5. According to the Wall Street Journal, the consulting 
firm that produced your recently-concluded employee survey wrote the 
following: ``People do not speak optimistically about the future. The 
absence of a clear vision of the future allows room for speculation and 
rumor about what the future could bring, such as further USAID 
integration into DOS [Department of State] or the militarization of 
foreign policy.'' When will you articulate a clear vision for the 
future of the Department? What would you say to your employees--and 
members of this committee--who are apprehensive about the steep cuts to 
budgets and staffing you have proposed and the shape of a 
reorganization? How would you respond to concerns from employees and 
members of this committee that the administration is militarizing 
foreign policy? Do you have any additional information to share about 
the potential integration of USAID into the Department of State?

    Answer. Following the employee survey, the second phase of the 
Department's efficiency review is framing the redesign effort itself, 
an employee-led initiative jointly conducted by State and USAID to 
examine how we can structure our processes, workforce, and technology 
to better achieve our mission, from which the vision for the future 
will emerge. We convened a group of key leaders from State and USAID--
across Civil and Foreign Services and from a diverse range of bureaus--
to draft core tenets for each organization: Purpose, Mission, and 
Ambition. We are asking for employee feedback on these statements, 
which will be used as a starting point to help guide and inspire the 
redesign, and to set clear context and direction decisions.
    The redesign initiative will result in a comprehensive plan to 
transform the Department of State and USAID by aligning resources, 
people to deploy the talent and resources of the Department in the most 
efficient way possible.
    Our employees are passionate, patriotic, and dedicated to the 
Department and USAID's core missions of diplomacy and development. Our 
employees are our most valuable resource.
    There is no intention or plan to fold USAID into the State 
Department.

    Question 6. Mr. Sullivan, the proposed State Department 
Reauthorization Bill for FY 2018 calls for the disestablishment of any 
special envoy position not required by law within 30 days. There are, 
however, some critical special envoys, including the Lead Coordinator 
for Iran Nuclear Implementation, the Special Envoy for Climate Change, 
the Ambassador at Large for Women's Issues, and the Special Envoy for 
Sudan and South Sudan. Which special envoy positions would you 
recommend be reestablished should the current reauthorization bill 
pass? Will you inform this committee of which special envoy positions, 
if any, the Department of State intends to maintain prior to any 
redesign or reorganization?

    Answer. We are currently evaluating the utility of the nearly 70 
Ambassadors-at-Large, Special Representatives or Special Envoys that 
exist within the structure of the U.S. Department of State. We want to 
make sure that the responsibility for each issue is appropriately 
placed and aligned with the resources needed to achieve its mission.
    The Department will continue to meet its mandate on foreign policy 
goals that are currently the charge of Special Envoys, Special 
Representatives, and Ambassadors-at-Large, whether the charge is coming 
from a Congressional statute or an instruction from the President or 
Secretary of State.

    Question 7. I understand some in the White House are considering 
moving the State Department's Bureau of Population, Refugees, and 
Migration (PRM) to the Department of Homeland Security. During a July 
18 hearing I co-chaired alongside Senator Young on the ``Four Famines'' 
in Northeastern Nigeria, South Sudan, Somalia, and Yemen, a panel of 
witnesses all agreed that this move could jeopardize the critical work 
PRM is doing at a time when there are more refugees worldwide than at 
any point in history. Do you support efforts to move PRM to the 
Department of Homeland Security? Does Secretary Tillerson support 
efforts to move PRM to the Department of Homeland Security? What impact 
would such a move have on the United States' ability to provide aid and 
manage the worldwide refugee crisis?

    Answer. The outcome of the organizational review has not been 
predetermined. As the Secretary has noted, the function of the Bureau 
of Population, Refugees, and Migration (PRM) is vitally important to 
our mission at the Department of State; humanitarian work is essential 
to the Department's efforts to secure our borders and protect the 
American people.
    Responding to refugee and forced displacement crises is 
fundamentally diplomatic in nature and has always required a 
combination of meeting immediate needs while seeking longer-term 
solutions that will support refugees in the countries to which they've 
fled, get refugees home safely when they want to do so, and provide 
resettlement to those who cannot return home. PRM is a critical 
component of the State Department's efforts to achieve these 
objectives, amidst the world's more urgent humanitarian crises and 
conflicts. Achieving long-term solutions requires the expertise of many 
in the inter-agency and the State Department. PRM leads this 
coordinated effort to ensure all of our diplomatic, assistance, and 
national security tools are efficiently employed to address the needs 
of refugees and forcibly displaced people to find solutions to their 
displacement.

     Responses to Additional Questions for the Record Submitted to 
               John J. Sullivan by Senator Cory A. Booker

    Question 1. Do you believe that the State Department's Office of 
the Special Envoy to Sudan and South Sudan should be authorized?

    Answer. Working to resolve the humanitarian crisis in South Sudan 
and civil conflicts in both Sudan and South Sudan remain policy 
priorities for the U.S. government. The Office of the Special Envoy for 
Sudan and South Sudan, led by a senior Foreign Service officer, 
continues to be deeply engaged on these issues and in shaping and 
supporting U.S. policy, in close coordination with the Bureau of 
African Affairs and our international partners.
    We are currently evaluating the utility of the nearly 70 
Ambassadors-at-large, special representatives, or special envoys that 
exist within the structure of the U.S. Department of State. The 
appointment of a Special Envoy for Sudan and South Sudan is under 
consideration in the context of this effort.

    Question 2. What steps are being taken so that the administration 
is ready to make a determination on Sudan sanctions in three months?

    Answer. The U.S. government continues to monitor the actions of the 
Government of Sudan, and to corroborate and analyze information and 
reporting as needed to make an informed decision, building upon our 
assessment prior to our July 12 decision to extend the review period. 
We are taking such steps to ensure that a comprehensive interagency 
review of the information informs our decision on October 12, including 
through a senior-level interagency process designed to take into 
account the views of the State Department, the Treasury Department, the 
Office of the Director of National Intelligence, and the U.S. Agency 
for International Development, among others. We continue to coordinate 
closely with and consider relevant and credible information from a wide 
range of sources both inside and outside of the U.S. government--
including diplomatic and military reporting, the intelligence 
community, United Nations peacekeeping forces and international 
organizations, and non-governmental sources--with the aim of ensuring a 
credible and comprehensive review of the actions of the Sudanese 
government in the areas that gave rise to Executive Order 13761.
    We are focused on continuing to engage with the Sudanese government 
and to ensuring it sustains positive actions in the five areas. This 
includes maintaining a cessation of hostilities, improving humanitarian 
access, addressing regional conflicts, and countering the threat of 
terrorism. We will ensure the government understands that the United 
States expects additional progress during the extended review period, 
and will hold Sudan to account through robust bilateral engagement and 
active monitoring.

    Question 3. One proposal under consideration as part of the 
administration's efficiency review process is to move the State 
Department's Consular Affairs and Population, Refugees, and Migration 
Bureaus to the Department of Homeland Security.
    I am pleased that Secretary Tillerson opposes this shift and 
believes this work is ``essential to the Department's mission.'' These 
diplomatic and humanitarian functions should remain with the State 
Department, which has the experience, personnel, and regional knowledge 
needed to carry out consular and refugee affairs.
    Can you expand on why is it so critical for these functions to 
remain under State Department leadership?

    Answer. As the Secretary has noted, the function of the Bureau of 
Population, Refugees, and Migration (PRM) is vitally important to our 
mission at the Department of State; humanitarian work is essential to 
the Department's efforts to secure our borders and protect the American 
people.
    Responding to refugee and forced displacement crises is 
fundamentally diplomatic in nature and has always required a 
combination of meeting immediate needs while seeking longer-term 
solutions that will support refugees in the countries to which they 
have fled, get refugees home safely when they want to do so, and 
provide resettlement to those who cannot return home. PRM is a critical 
component of the State Department's efforts to achieve these 
objectives, amidst the world's more urgent humanitarian crises and 
conflicts. Achieving long-term solutions requires the expertise of many 
in the inter-agency and the State Department. PRM leads this 
coordinated effort to ensure all of our diplomatic, assistance, and 
national security tools are efficiently employed to address the needs 
of refugees and forcibly displaced people to find solutions to their 
displacement.

    Question 4. Will you assure the committee that you will appoint a 
Coordinator for Sanctions Policy?

    Answer. We are currently evaluating the utility of the nearly 70 
Ambassadors-at-Large, Special Representatives or Special Envoys that 
exist within the structure of the U.S. Department of State. We want to 
make sure that the responsibility for each issue is appropriately 
placed and aligned with the resources needed to achieve its mission.
    The Department will continue to meet its mandate on foreign policy 
goals that are currently the charge of Special Envoys, Special 
Representatives, and Ambassadors-at-Large, whether the charge is coming 
from a Congressional statute or an instruction from the President or 
Secretary of State.

    Question 5. In your reorganization process, have you taken into 
account the different skill sets needed for development and diplomacy? 
How have you done so?

    Answer. The current phase of our efficiency review is framing the 
redesign effort itself, which involves representatives of the State and 
USAID community to design how the agencies will function for the next 
twenty-plus years. I chair an Executive Steering Committee, which is 
staffed with senior level leaders from State and USAID, and this 
committee provides guidance to five workstreams, each of which is 
jointly chaired by State and USAID and consists of State and USAID 
employees. With the leadership and involvement of both State and USAID 
employees--career staff, a mix of Foreign Service and Civil Service, 
and representation from both the field and Washington--the process 
takes into account their skill sets in both development and diplomacy.

    Question 6. What (if any) development strategy or data is driving 
the reorganization and can you provide the committee with the data or 
inputs you are using to inform the reorganization process?

    Answer. The current phase of our efficiency review is framing the 
redesign effort itself, which involves representatives of the State and 
USAID community to design how the agencies will function for the next 
twenty-plus years. There are five employee-led working groups: 1) 
overseas alignment and approach, which will assess key diplomatic 
activities and identify required platforms, including the balance of 
work between Washington and the field; 2) foreign assistance, which 
will analyze current foreign assistance programs at State and USAID to 
develop a future vision, ensuring alignment with national priorities; 
3) human capital planning, which will identify ways to promote an agile 
and empowered workforce as part of an overarching talent map; 4) IT 
platform planning, which will focus on improving the employee 
experience through increased use of cutting-edge technology and 
streamlining duplicative systems and processes; and 5) management 
operations, which will identify opportunities to streamline 
administrative support functions at the bureau and agency levels to 
ensure front-line effectiveness.
    The working groups' discussions are considered sensitive but 
unclassified, deliberative and pre-decisional. We are soliciting 
employee feedback and suggestions. The content will not be shared 
outside of the participants until it is in the form of recommendations 
and specific ideas. Nonetheless we will keep you informed as the 
process progresses.

    Question 7. What specifically is your process for engaging input 
and feedback from Congress on reform and reorganization prior to the 
release of the FY 2019 budget?

    Answer. The Department remains committed to working with Congress 
on the steps we are considering to improve the ability of the 
Department and USAID to achieve critical foreign policy goals. We have 
been in regular communication on the redesign process with the 
Department's committees of jurisdiction. The Department will continue 
to work with Congress, including your staff, during the redesign 
process and will notify and report on planned organizational changes 
consistent with sections 7015 and 7034(l) of the Department of State, 
Foreign Operations, and Related Programs Appropriations Act, 2017 
(Division J, P.L. 115-31). As the review is still underway, it is 
possible some of the planned changes might also require statutory 
changes. We will work with Congress as part of or prior to the FY 2019 
budget submission to pursue such statutory changes. At the end of this 
process, our goal is to ensure the State Department and USAID is better 
equipped to address the foreign policy challenges of the United States.

    Question 8. Will you share with this committee the reorganization 
draft proposal that the Department submitted to OMB? Please provide a 
summary of the proposal.

    Answer. The Department submitted to OMB its initial draft of the 
agency reform plan. It is a high-level draft, intended to initiate a 
conversation and does not yet recommend specific change or actions. It 
includes information about our current workforce and progress on our 
Transformation efforts so far. State and USAID submitted coordinated 
reports. We will continue to keep you and your staff apprised of the 
redesign process.

    Question 9. Why is the State Department temporarily suspending the 
Diplomacy Fellows Program? How long do you anticipate this suspension 
to last?

    Answer. The State Department has temporarily suspended the 
Diplomacy Fellows Program while we evaluate staffing levels and hiring 
programs in preparation for the Department's Re-design Plan.

    Question 10. How many candidates are currently in the pipeline as 
Diplomacy Fellows and how will their candidacy be affected by this 
decision?

    Answer. In CY 2016, there were approximately 180 candidates who 
applied to the Department of State via the Diplomacy Fellows program. 
All of these candidates were invited to the Oral Assessment and offered 
the opportunity to schedule an appointment. The suspension did not 
affect their candidacies.

    Question 11. Is the State Department considering suspending, 
temporarily or permanently, any other professional fellowship programs, 
pathways programs, or other foreign or civil service recruitment 
programs? If so, please specify which programs and for what length of 
time.

    Answer. The State Department has temporarily suspended hiring new 
Presidential Management Fellows (PMFs) while we evaluate our current 
staffing levels in preparation for the Department's Re-design Plan. The 
State Department continues to have an active PMF community of over 70 
PMFs and is very supportive of this prestigious leadership and 
development program.
    The State Department has a number of continuing foreign and civil 
service recruitment programs. We continue to provide opportunities for 
current students (enrolled in a qualifying educational program) to gain 
experience and explore career paths within the Executive Branch of the 
Government, via both paid and unpaid programs.
    The State Department values the work and contributions of our over 
200 Pathways Interns, through the Pathways Program.
    While we evaluate our current staffing levels in preparation for 
the State Department's Re-design, the Department has temporarily 
suspended the conversion of Pathways Interns into the Competitive 
Service.



                               __________

 Letter to Hon. James Mattis, U.S. Secretary of Defense, and Hon. Rex 
Tillerson, U.S. Secretary of State, Submitted for the Record by Senator 
                               Tom Udall

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                  [all]
</pre></body></html>
